<html>
<title> - DROUGHT AND CLIMATE CHANGE ON WATER RESOURCES</title>
<body><pre>[Senate Hearing 112-16]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-16
 
                      DROUGHT AND CLIMATE CHANGE 
                           ON WATER RESOURCES

=======================================================================

                                HEARING

                               before the

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                                   TO

   RECEIVE TESTIMONY ON THE CURRENT DROUGHT CONDITIONS AFFECTING NEW 
MEXICO AND THE STATUS OF REPORTS TO BE ISSUED PURSUANT TO SECTIONS 9503 
  AND 9506 OF THE SECURE WATER ACT REGARDING A REVIEW OF THE CURRENT 
  SCIENTIFIC UNDERSTANDING OF THE IMPACTS OF CLIMATE CHANGE ON WATER 
RESOURCES AND AN ASSESSMENT OF THE RISKS ASSOCIATED WITH CLIMATE CHANGE 
               ON WATER RESOURCES IN CERTAIN RIVER BASINS

                               __________

                      SANTA FE, NM, APRIL 27, 2011


                       Printed for the use of the
               Committee on Energy and Natural Resources



                  U.S. GOVERNMENT PRINTING OFFICE
66-455                    WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="ef889f80af8c9a9c9b878a839fc18c8082c1">[email&#160;protected]</a>  

               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                  JEFF BINGAMAN, New Mexico, Chairman

RON WYDEN, Oregon                    LISA MURKOWSKI, Alaska
TIM JOHNSON, South Dakota            RICHARD BURR, North Carolina
MARY L. LANDRIEU, Louisiana          JOHN BARRASSO, Wyoming
MARIA CANTWELL, Washington           JAMES E. RISCH, Idaho
BERNARD SANDERS, Vermont             MIKE LEE, Utah
DEBBIE STABENOW, Michigan            RAND PAUL, Kentucky
MARK UDALL, Colorado                 DANIEL COATS, Indiana
JEANNE SHAHEEN, New Hampshire        ROB PORTMAN, Ohio
AL FRANKEN, Minnesota                JOHN HOEVEN, North Dakota
JOE MANCHIN, III, West Virginia      BOB CORKER, Tennessee
CHRISTOPHER A. COONS, Delaware

                    Robert M. Simon, Staff Director
                      Sam E. Fowler, Chief Counsel
               McKie Campbell, Republican Staff Director
               Karen K. Billups, Republican Chief Counsel


                            C O N T E N T S

                              ----------                              

                               STATEMENTS

                                                                   Page

Bingaman, Hon. Jeff, U.S. Senator From New Mexico................     1
Connor, Hon. Michael, Commissioner, Bureau of Reclamation........    19
DuBois, David, New Mexico State Climatologist, New Mexico State 
  University, Las Cruces, NM.....................................     3
Hurd, Brian H., Associate Professor, Agricultural Economics, New 
  Mexico State University, Las Cruces, NM........................    37
Lopez, Esteven, Director, NM Interstate Stream Commission........     6
Newman, Corbin L., Jr., Regional Forester, Southwestern Region, 
  Forest Service, Department of Agriculture......................    11
Overpeck, Jonathan, Co-Director, Institute of the Environment, 
  Professor of Geosciences, Professor of Atmospheric Sciences, 
  The University of Arizona......................................    30

                                APPENDIX

Additional material submitted for the record.....................    51


                      DROUGHT AND CLIMATE CHANGE 
                           ON WATER RESOURCES

                              ----------                              


                       WEDNESDAY, APRIL 27, 2011

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                      Santa Fe, NM.
    The committee met, pursuant to notice, at 1:30 p.m., at 
Santa Fe Convention and Visitors Center, Hon. Jeff Bingaman, 
chairman, presiding.

OPENING STATEMENT OF HON. JEFF BINGAMAN, U.S. SENATOR FROM NEW 
                             MEXICO

    The Chairman. Thank you all for being here. This is a 
hearing of the Senate Energy and Natural Resources Committee. 
It's a field hearing. The hearing is to focus on two related 
subjects. Let me, before I really get into this, give a little 
description of what we're going to try to do here or talk 
about.
    Let me thank the city of Santa Fe for allowing us to use 
this wonderful facility. Councilor Bushee is here. Where is 
she? I saw her here earlier. Thank you for being here and 
thanks for letting us use this. City Manager Robert Romero is 
here. We appreciate him being here and the use of the facility 
as well and all the rest of the city council and the mayor.
    The hearing will focus on two related subjects. First we'll 
hear about the serious drought conditions that are now 
affecting New Mexico. Despite receiving a little moisture over 
the past few days at least in some parts of the State, the 
majority of the State is experiencing a severe drought that has 
impacted irrigation and municipal and environmental water 
supplies.
    The current Drought Monitor maps indicate that no part of 
New Mexico is without impacts. The southern one-third of the 
State is experiencing extreme drought conditions, having had 
little or no rainfall for several months.
    Below normal precipitation and snow pack resulted in flows 
in the Rio Grande that are forecast to be 39 percent of normal. 
Irrigators will have to use more water from storage this year 
than was otherwise expected.
    Some municipalities such as the city of Las Vegas will come 
close to using up a majority of their existing supplies. 
Environmental flows will also be impacted because of the 
natural flows in many of the State's stream systems being 
reduced.
    Challenges due to an increased population, environmental 
demands, and climate change as well are present even during our 
normal water years. The drought conditions that we're 
experiencing at this time make the ongoing stresses even more 
difficult to manage.
    The current drought provides an incentive for New Mexicans 
to continue the collaborative efforts that already exist in 
many basins. For example, water users will have to work 
together with the Bureau of Reclamation this year to meet the 
flow requirements called for in the Biological Opinion for the 
endangered silvery minnow in the Lower Rio Grande area.
    Communities throughout the State will need to continue to 
engage in water planning activities and water conservation 
efforts. Cooperative efforts such as water banking and shortage 
sharing agreements will be essential tools to help communities 
maintain economic stability even in times of drought.
    Maintaining cooperation between Federal, State, and local 
entities to address emergency situations such as fires will be 
all the more important. So I'm looking forward to hearing 
testimony on all of the efforts that are underway to address 
the current drought situation. That will be the subject 
primarily of our first panel.
    The second panel of witnesses will focus on the impacts of 
climate change on water supplies and will highlight a report 
issued by the Bureau of Reclamation earlier this week in 
response to the SECURE Water Act requirement that Congress 
enacted in 2009.
    I would just say for purposes of anybody here in the 
audience or watching this that that entire report by the Bureau 
of Reclamation is available on the Bureau of Reclamation web 
site USBR dot gov. So I recommend any of you who want to, go on 
there and download that and print it for yourselves, if you'd 
like.
    This issue has been receiving increased attention recently 
in part due to shortage conditions on the Colorado River. But 
research has been ongoing for several years. New Mexico's 
national laboratories and universities are engaged in cutting 
edge scientific research to help us better understand the 
potential effects of climate change on our water supplies and 
to learn how to better manage our existing resources.
    For example, researchers at New Mexico State University are 
studying the resilience of the acequia communities to climate 
change. Sandia National Laboratory has scientists collaborating 
on decision support tools to enable water managers to make 
informed decisions about water uses in the face of an uncertain 
future.
    I'm very glad that the Bureau of Reclamation has completed 
the report required by the SECURE Water Act. I'm looking 
forward to hearing about the status of the science on the 
effects that climate change may have on water supplies.
    I'm also interested in hearing about adaptation measures 
that can be taken to mitigate against negative effects. Even a 
quick look at the information being presented today indicates 
that temperatures are rising, precipitation is expected to 
decrease.
    The current conditions emphasize the need to support the 
efforts to develop a sustainable water supply for the country 
through the WaterSMART Program which the administration has in 
place.
    So again thanks to everyone for being here today. Let me 
briefly introduce our first panel of witnesses and then have 
them go ahead with their testimony.
    Dr. David DuBois is the New Mexico State Climatologist. He 
is here today to give us his views. Esteven Lopez, of course, 
is Director of the Interstate Stream Commission. Esteven, thank 
you very much for being here. Corbin Newman is the Regional 
Forester for the U.S. Forest Service.
    If each of you could take a few minutes and tell us the 
main points that you want us to understand, I'll appreciate 
that. Then I'll have some questions of the whole panel. So, Dr. 
DuBois, why don't you start.

STATEMENT OF DAVID DUBOIS, NEW MEXICO STATE CLIMATOLOGIST, NEW 
            MEXICO STATE UNIVERSITY. LAS CRUCES, NM

    Mr. DuBois. OK. Good afternoon, Mr. Chairman. We thank you 
again for the opportunity to testify about the status of the 
drought in New Mexico. As you said I am the State 
climatologist, I've been here about one year now, coming in 
from the State of Nevada. I'm originally a native of New 
Mexico. So it's very dear to me on--this State.
    I also meet monthly with several State and Federal agencies 
including the New Mexico Department of Agriculture, Office of 
the State Engineer, National Weather Service, Natural Resources 
Conservation Service, Bureau of Reclamation, and the Farm 
Services Agency to discuss drought. We've been meeting pretty 
much every month for many years now. I've been doing it ever 
since I got here.
    So I will give a briefing on the report of the 
precipitation and drought indicators that we as a group and 
myself have been tracking over the past year.
    I would like to direct your attention to the map. This U.S. 
Drought Monitor, that's the latest monitor from April 19. 
Basically it's a community effort that basically incorporates a 
lot of the local, State, Federal data on drought indicators, 
local conditions. It comes out every Thursday. That is actually 
last Thursday's. A new one will come out tomorrow.
    That current one, the deep red is the extreme drought, what 
they call D3. Then the brownish mustard color, that is severe 
drought, D2. Basically it's sort of an indicator of the extent 
and severity of the drought.
    The latest draft--I'm part of the monitor team. So tomorrow 
is actually--the draft of it is actually the--D3 is actually 
starting to encompass more of New Mexico. So it's still draft.
    But if you can imagine drawing a line from where it is on 
the western corner about halfway up Catron County, including 
most of Bernalillo County, and then connecting with the 
easternmost portion of the red. So that's our draft extreme 
drought according to the Drought Monitor for tomorrow. So it's 
actually worsening compared to what was in the original 
statement. So that's a very important thing.
    Currently the extreme drought covers about 33 percent of 
the State. I think it's some more--it's going toward more 
about--maybe nearly half of the State, somewhere around there. 
So that's a very important--even though there's been a little 
bit of precip in the Rio Arriba County area, I think there's 
still--the big concern is Southern New Mexico.
    There's been many locations and reports that I've been 
tracking and working with the National Weather Service. You 
know, there are many sites that have not--haven't seen any rain 
in over 3 months. The same with--I manage a station in Las 
Cruces at the university that's been operating since 1892.
    We haven't seen anything since our snow on February 2. That 
was our only precip that we had. It was only eight-hundredths 
of an inch.
    So basically on a statewide basis, over the past 3 months, 
so January, February, March, the statewide precipitation has 
been the second lowest since records have been taken. So that's 
a very important point.
    Then there's another graph that I have in your packet that 
shows the average precipitation from January through March. 
This is on a statewide basis, showing every year the average 
precipitation.
    On the far right of the plot is the latest at 2011. Then I 
highlighted that, circled that. So that was--that basically 
describes the second lowest amount of precipitation, second to 
the 1972 very low precipitation.
    Just looking at this past March, statewide this has been 
the third driest on record. So this is on the whole State. 
There's actually a few stations that are actually--that are 
actually the driest. But on the statewide, it's the third 
driest.
    Again I just want to magnify that the hardest hit locations 
are in the southern deserts and along the central valleys. If 
you look at just the southwest deserts, the precipitation is 
about 7 percent of the long-term normal. So that's pretty low.
    Not much better, the central valley is about 15 percent of 
normal. So like I said in Las Cruces we have not had 
precipitation for more than 80 days now.
    So in the past 12 months, we've noticed sort of a--what I 
would call a roller-coaster ride in precipitation. In 2009 to 
2010, we were under the influence of an El Nino situation. We 
had above normal precipitation, lots of good snow.
    That sort of waned and we developed a La Nina which is the 
opposite effect of an El Nino. That started in the fall of last 
year. We are still under the influence of this La Nina, which 
means--which tends to be--which trends to translate into drier 
than normal conditions and warmer temperatures on average.
    So this past El Nino was the highest since we had an El 
Nino back in 1997, 1998, which you can sort of see that on the 
chart a little bit, if you can look at the highs.
    So there's tremendous--on the graph there's tremendous 
variation in the precipitation from year to year. What I like 
to do is track the El Ninos over time. The last chart on your 
handout is labeled a Multivariate El Nino Southern Oscillation, 
ENSO index. As you can see there's ups and downs, back and 
forth. That's over the--starting in 1950 to the present. On the 
far right is where we are right at this moment. We're in the La 
Nina which is the blue, if you have a color handout.
    You can see this going from a very strong El Nino to a 
strong La Nina. That's sort of--kind of the picture that we as 
climatologists look at, is what kind of situation are we in. El 
Ninos tend to be wetter than normal, La Ninas tend to be drier 
than normal.
    It's not all the same in the whole State. Usually the La 
Ninas tend to have more--in the past have had more influence on 
Southern New Mexico. There's sort of a line--if you can draw a 
line on Interstate 40, below that, that's the highest impacts 
of the La Nina, a drier than normal. That's kind of what we saw 
this spring.
    So we're expecting to see the La Nina starting to wane to 
more of an in between pattern for this coming next few months. 
Then right now we're waiting for the monsoon prediction, which 
right now they're looking at an equal chance of either high or 
lower. There's really not a good sense.
    But the last statement of this is that during the past La 
Ninas that were very--that we had very little snow pack, the 
precipitation in the summer has been about 96 percent of 
normal. Those are for the conditions when we had a really low 
snow pack. I think that was like 2006.
    So if we look--if we learn from our past to see what kind 
of things we can potentially see, there's--we can't use it as a 
perfect predictor. But looking back in time, what happened 
during the past La Ninas, that will help us.
    So there's--that's kind of our discussion with our group, 
is, you know, what happened--is there a pattern that we were in 
in the past 30, 40 years, what happened then and can we--what 
can we learn from that. So right now we're still waiting to see 
what the predictions are.
    But the best guess, educated guess would be maybe tending 
toward a more neutral, an average start of the summer. But, you 
know, we have to wait and see. So thank you for the opportunity 
to report on this. Thank you, Mr. Chairman.
    [The prepared statement of Mr. DuBois follows:]

Prepared Statement of David DuBois, New Mexico State Climatologist, New 
                Mexico State University, Las Cruces, NM

    Mr. Chairman and Members of the Committee: Thank you for the 
opportunity to testify today regarding the status of the drought in New 
Mexico. As the State Climatologist I direct the New Mexico Climate 
Center based out of the Plant and Environmental Sciences Department at 
New Mexico State University. I have been in this position for just over 
a year coming from the state of Nevada. Under my direction the Center 
maintains an archive of climate data collected throughout the state of 
New Mexico from many public and private networks. As the State 
Climatologist I meet monthly with the National Weather Service, Office 
of the State Engineer, NM Dept of Agriculture, NRCS, Bureau of 
Reclamation, and the Farm Services Agency to track the status of 
drought in the state.
    In this briefing I will report on the precipitation and drought 
indicators that have been tracked over the past year. The US Drought 
Monitor assesses drought conditions throughout the US incorporating 
state and local data on a weekly basis. According to the latest drought 
monitor map on April 19, 33 percent of the state of New Mexico is in 
``extreme'' drought, 42 percent is in ``severe'' drought, 20 percent in 
``moderate'' drought and 6 percent abnormally dry. Figure 1* shows a 
map where these designations appear across New Mexico. Southern New 
Mexico is seeing the brunt of the drought as the map shows.
---------------------------------------------------------------------------
    * Figures 1-3 have been retained in committee files.
---------------------------------------------------------------------------
    There are many locations, particularly in southern NM, that have 
not seen precipitation for more than three months. Over the past three 
months state-wide precipitation has been the second lowest since 
records have been taken. As the chart below shows the start of 2011 is 
only second to a dry period back in 1972.
    Looking at just March 2011 state-wide precipitation is the 3rd 
driest on record. The hardest hit locations in the state are in the 
southern deserts and central valleys. In the southern desert region, 
over the past three months, precipitation is about 7 percent of the 
long term normal. Not much better, the central valley region is at 15 
percent of normal. In Las Cruces we have not seen precipitation for 
more than 80 days.
    Over the past 12 months we have been on a roller coaster ride in 
precipitation. In the winter of 2009 to 2010 we were under the control 
of a strong El Nino pattern and during the fall of 2010 a strong La 
Nina developed. The 2010 El Nino was the strongest episode since the 
one during 1997-1998. Below is a chart that shows the occurrences of El 
Ninos and La Ninas over the past 61 years. The numbers are a measure of 
the strength of the El Nino/La Nina signal. Our current status in the 
La Nina is shown on the right hand side of the chart as the blue shaded 
area.
    Our understanding of the effects of La Nina in New Mexico based on 
past events showed us that we would expect below normal winter and 
spring precipitation throughout the state and especially south of 
interstate 40. This is basically what we observed. While it's not 
guaranteed that a La Nina will bring drought it tells us that it's more 
likely.
    The current observations are indicating a weakening La Nina and the 
predictions are trending toward neutral ENSO by the start of the 
summer. It is difficult to give a prediction of the monsoon at this 
point in time. Based on the past we do know that La Nina's influence on 
summer precipitation has not been as negative compared to winter and 
spring. Summer precipitation in NM during all La Ninas has averaged 96 
percent of normal.
    Thank you for the opportunity to report on this very important 
topic. I would be glad to answer any questions that you may have.

    The Chairman. Thank you very much. I appreciate your 
testimony. Esteven, go right ahead, tell us your perspective 
from the views of the Interstate Stream Commission.

  STATEMENT OF ESTEVEN LOPEZ, DIRECTOR, NM INTERSTATE STREAM 
                           COMMISSION

    Mr. Lopez. Good afternoon, Mr. Chairman. Thank you for this 
opportunity to speak to you about the drought in New Mexico.
    As you've just heard, New Mexico has just suffered through 
one of the driest winters on record. For several areas in the 
State, the year-to-date precipitation is the lowest in the 
State's recorded history. This as you might expect is already 
creating significant challenges for water managers. Those 
challenges are simply very likely to grow as the irrigation 
season advances.
    I just want to highlight a few examples of those challenges 
around the State. In the Gallinas River, the city of Las Vegas, 
New Mexico, relies on the surface water from the Gallinas River 
for about 90 percent of its supply.
    Given the severity of the drought, the city has already had 
to ban most outdoor uses. Additionally, they need additional 
infrastructure improvements. They have a funding request before 
the New Mexico Water Trust Board for a replacement well that is 
being considered right now. The current water supply emergency 
will play a part in the Water Trust Board's deliberations.
    In recent years the Office of the State Engineer has worked 
with the Rio Gallinas Acequia Association to install flow 
measurement stations that will help in managing water uses 
there generally, but particularly in times of drought.
    More recently both the city and the acequias have been--
successfully negotiated a water use rotation agreement that 
should help minimize conflict between the 2 as they struggle 
through the summer.
    In the Lower Rio Grande, farmers within Elephant Butte 
Irrigation District have yet to receive any surface water this 
year. This means that all of the irrigation within EBID is 
being done through groundwater, the pumping of which as you can 
well imagine is more and more expensive as fuel prices rise.
    Further, given that usable water in Elephant Butte 
reservoir is less than 400,000 acre-feet, Article VII of the 
Rio Grande Compact is in effect. Thereby, prohibiting storage 
in upstream post-Compact reservoirs. This prohibition of 
storage will likely be in effect through the remainder of the 
calendar year and probably into next spring.
    This year flows in the Rio Grande past San Marcial and into 
Elephant Butte Reservoir are expected to be about 33 percent of 
the long-term average. In recent years the New Mexico 
Interstate Stream Commission working with the Bureau of 
Reclamation has worked to construct and maintain over 20 miles 
of pilot channel through the sediment delta to assure that the 
water that does reach the reservoir actually makes it into the 
active pool rather than simply spreading on the delta and 
evaporating.
    This has been helpful in terms of our Compact compliance. 
To date we are carrying forward a Compact credit that is in our 
deliveries to Texas of 164,000 acre-feet. That will help us 
manage through the future years as well.
    In the Middle Rio Grande, upstream reservoirs started the 
year with a substantial amount of water in them. However, the 
projected minimal runoff is still going to create quite a 
challenge as you noted earlier in terms of meeting the flow 
requirements for the silvery minnow under the flow requirements 
required under the 2003 Biological Opinion while still meeting 
the needs of other middle valley users.
    The good news in that front is that the status of the 
endangered minnow is far better today than it has been in 
recent years. Thanks to the efforts of the Middle Rio Grande 
Endangered Species Collaborative program, there is 
substantially more usable low flow habitat available.
    The needs of the minnow are much better understood. There 
is an experimental population in Big Bend, Texas. Now there are 
several off-stream refuges that are available to help them 
weather this drought.
    In the Lower Pecos River, water users and water managers 
are fortunate to have implemented the Pecos River Settlement in 
2009 and concurrently having built a 100,000 acre-feet Compact 
credit. That should help us get through into the next few years 
as well.
    But under the terms of the settlement, when surface 
supplies are limited, the settlement calls for augmentation 
pumping of groundwater for the benefit of the Carlsbad 
Irrigation District. This year the Interstate Stream Commission 
has already begun augmentation pumping as of March 1. We will 
likely have to continue pumping through the entire year. This 
is going to cost the State dearly in a time of very tight State 
budgets.
    On the San Juan, as you can see from the drought map, the 
San Juan is the one relatively wet area. It's still in drought. 
But it's relatively wet compared to the rest of the State. The 
Southern Colorado snow pack that feeds the San Juan is at about 
100 percent of average. Yet the runoff into Navajo Reservoir is 
expected to be about 80 percent of the long-term average.
    Nevertheless, given the fact that there is a multiyear 
supply sharing agreement in effect amongst the major water 
users in the basin and the fact that we've successfully 
installed measuring and metering equipment on all of the 
surface water diversions, hired some watermasters, we think 
that we're well-positioned to manage through what we hope will 
continue to be just a fairly mild drought in this basin.
    The preceding are just a few examples of the drought 
challenges we're facing all over the State. Every community 
around the State has drought-related challenges of its own.
    The State Engineer has recognized the need to actively 
manage and administer water rights and water uses. Ongoing 
legal challenges to the State Engineer's proposed active water 
resource management regulations have hampered his ability to 
exercise direct priority administration.
    However, the advancement of measuring and metering all 
around the State, the hiring of watermasters, the admin--the 
alternative administration schemes that have been negotiated 
including some of the ones cited here, the rotation schedule on 
the Gallinas, the Pecos Settlement, the supply sharing on the 
San Juan, all demonstrate that we are slowly but surely getting 
our act together in terms of the State Engineer's ability to 
manage and administer water uses around the State. So that's 
going to be critical through drought periods.
    Finally, as you well know, a major element of effective 
administration is the adjudication of water rights. Progress is 
being made on that front. The negotiation, settlement, 
authorization, and partial funding of the Navajo Nation, 
Aamodt, and Taos Indian water rights settlements are certainly 
major elements of that progress.
    I want to take this opportunity to thank you, Senator, for 
your continued assistance in helping New Mexicans improve our 
ability to better manage our water supply. That support has 
come in the form of continuing funding to the Federal water 
management agencies, the support for the endangered species 
programs around the State, and most recently your heroic 
efforts in securing the Federal authorizing legislation and 
direct funding for the Indian water rights settlements. Thank 
you.
    [The prepared statement of Mr. Lopez follows:]

  Prepared Statement of Esteven Lopez, Director, NM Interstate Stream 
                               Commission

    Thank you for this opportunity to speak to you about the drought 
situation in New Mexico. New Mexico has just suffered through one of 
the driest winters on record. Snowpack conditions around the state are 
generally very poor and consequently, flows in the state's streams and 
rivers are expected to be extremely low. For several areas in the 
state, year-to-date precipitation is the lowest in the state's recorded 
history. As you might expect, this is already creating significant 
challenges for water management in the state and these challenges will 
likely grow as the irrigation season advances.
    Since the start of 2011, the drought in New Mexico has been 
intensifying. According to the United Stated Department of Agriculture/
National Agricultural Statistics Service's ``US Drought Monitor for New 
Mexico'', drought conditions worsen as you move south through the 
state. Currently, only the northwestern corner of the state, roughly 
corresponding to San Juan County, has the least severe Drought Monitor 
characterization--that is, ``abnormally dry.'' The rest of the northern 
third of the state is experiencing ``moderate'' drought conditions, the 
middle third of the state is in a ``severe'' drought condition and the 
southernmost third of the state is experiencing ``extreme'' drought 
conditions.
    Recognizing the intensifying drought, State Engineer John 
D'Antonio, Chairman of the New Mexico Drought Task Force convened a 
meeting of the Drought Task Force on March 21, 2011. This was the first 
Drought Task Force meeting under Governor Martinez' administration. The 
meeting was intended to acquaint the new members of Governor Martinez' 
team with the Task Force, its charge and of the need for coordination 
among state agencies.
    At the Drought Task Force meeting, the New Mexico State Forestry 
Division reported that year-to-date as of March 18th, there had already 
been 160 fires that had burned over 91,000 acres--more burned acreage 
than in all of 2010. Given the intensity of the drought, the potential 
fire outlook is severe. The representative of the New Mexico 
Agriculture Department reported that the state's drought conditions are 
having ``definitive negative impact'' on the state's agricultural 
activities. Moreover, the Department of Agriculture has characterized 
soil moisture conditions around the state as either ``very short'' or 
``short'', much less than what is needed for normal plant development. 
At this time, the New Mexico Department of Agriculture is monitoring 
drought and considering requesting a disaster declaration of the 
Governor but has not done so yet.
    Some of the other challenges have begun to manifest themselves as 
direct water supply problems. A few examples include:
Gallinas River
    The city of Las Vegas, New Mexico relies on surface water from the 
Gallinas River for about ninety percent (90%) of its supply. Given the 
severity of the drought, the city has had to implement stage IV drought 
restrictions banning most outdoor water uses. The city has begun 
exploring funding options to rehabilitate its surface water reservoir 
and replace some of its wells. The New Mexico Water Trust Board will be 
considering a funding request for a replacement well by the city and 
will take into account the current water supply emergency in its 
deliberations.
    In recent years, the Office of the State Engineer has worked with 
the Rio Gallinas Acequia Association to install flow measurement 
stations that will be critical to managing uses on the Gallinas River 
effectively. More recently, the city and the acequias have agreed to a 
water use rotation schedule that will help minimize conflict.
Lower Rio Grande
    In the Lower Rio Grande, farmers within the Elephant Butte 
Irrigation District (EBID) have yet to receive any surface water this 
year. Although there is over 450,000 acre-feet of water in Elephant 
Butte Reservoir, only about half of that amount is usable for 
downstream Rio Grande Project irrigation purposes. Under a 2008 
Operating Agreement between the US Bureau of Reclamation, EBID and the 
El Paso County Water Improvement District No. 1 (EP1), most of the 
usable project water has been allocated to EP1 leaving EBID with less 
than 50,000 acre-feet. This means that all irrigation within EBID is 
being done with groundwater the pumping of which is more and more 
expensive as fuel prices rise. Further, given that usable project 
supply is less than the key threshold of 400,000 acre-feet, Article VII 
of the Rio Grande Compact is in effect--prohibiting storage of water in 
upstream, post-compact reservoirs. This upstream storage prohibition 
will likely to be in effect through the remainder of this calendar year 
and into at least next spring. This upstream storage prohibition is 
likely to have minimal upstream consequence given the lack of runoff 
available for impoundment.
    This year, Rio Grande flow past San Marcial and into Elephant Butte 
Reservoir is expected to be about thirty-three percent (33%) of the 
long term average. In spite of this low inflow, New Mexico has done 
what it can that to minimize natural losses in the system. In recent 
years, the Interstate Stream Commission has worked with the U.S. Bureau 
of Reclamation to construct and maintain over twenty miles of pilot 
channel through the sediment delta at the upstream end of the reservoir 
to assure that the water that does reach the reservoir actually reaches 
the active reservoir pool instead of simply spreading on the delta and 
evaporating. This has been critical to New Mexico's compliance with its 
Rio Grande Compact water deliver obligations and has helped build New 
Mexico's 164,000+ acre-foot Compact Delivery credit.
    Also in recent years, the Office of the State Engineer has 
successfully implemented metering requirements on most non-domestic use 
wells in the Lower Rio Grande as part of his Active Water Resource 
Management initiative. Although the Active Water Resource Management 
regulations are being challenged in court thereby preventing priority 
administration at this time, this metering information should be useful 
in better understanding water uses generally. It could also provide the 
information that would allow for voluntary shortage sharing agreements.
Middle Rio Grande
    Upstream Rio Grande reservoirs in New Mexico started the year with 
plenty of supply. Still, the projected minimal runoff will challenge 
water managers in meeting the flow requirements for the Rio Grande 
silvery minnow under the 2003 biological opinion while also meeting the 
demands of middle valley users. This should not, however, diminish the 
fact that the status of the endangered minnow is far better than it was 
just a few years ago and in spite of the dire water supply outlook the 
minnow should be able to weather this year's drought. This is the 
result of the collaborative efforts of the Middle Rio Grande Endangered 
Species Collaborative Program. There is substantially more useable 
habitat available at low flow conditions, the needs of the minnow are 
better understood, there is an experimental population in Big Bend, 
Texas and there are now several off-river refugia available.
Lower Pecos River
    Water users and water managers in the Lower Pecos River in New 
Mexico are fortunate to have implemented the Pecos River Settlement in 
2009 and built a 100,000 acre-foot Pecos River Compact credit. The 
state is well positioned to meet its Compact delivery obligations. 
However, the settlement also calls for augmentation of the surface 
water supplies when water in storage for use by Carlsbad Irrigation 
District falls below certain threshold values. The Interstate Stream 
Commission is responsible for monitoring that available supply and has 
had to begin augmentation pumping since March 1, 2011. The current 
outlook is that pumping will probably have to continue through the 
irrigation season unless there are significant monsoons. This pumping 
is expected to cost the state dearly in a time of diminishing budgets.
San Juan and Colorado Rivers
    In many regards, the San Juan is the one bright spot in the state. 
Or perhaps I should say it's the one relatively wet spot. As indicated 
earlier, this area of the state is only classified as ``abnormally 
dry''. The southern Colorado snowpack that feeds this river is close to 
average, yet runoff into Navajo Reservoir is projected to be about 
eighty percent (80%) of average. Still, given that there is a multi-
year Supply Sharing Agreement in effect along with successful 
implementation of metering and measuring of surface diversions and 
hiring of water masters the state is well positioned to manage through 
what will hopefully be a fairly mild drought in this basin.
    Elsewhere in the Colorado River basin snowpack in the Upper Basin 
is well above average (in Colorado, Utah and Wyoming) and inflow into 
Lake Powell is also expected to be well above average. This in turn 
means that there will be additional releases to Lake Mead under the 
terms of the 2007 Coordinated Reservoir Operations and Shortage Sharing 
Agreement. The net effect is that the immediate threat of a Lower Basin 
shortage has abated and reduced tensions for the time being. 
Nevertheless, unless we get into a substantially wetter cycle than the 
last few years, the tensions will increase again soon. The Colorado 
River basin states, the U.S. Bureau of Reclamation, the U. S. 
International Boundary and Waters Commission and Mexico need to use 
this current reprieve to make progress on longer term solutions for 
dealing with potential shortages before they hit.
Conclusion
    The preceding examples are but a few of the illustrations of both 
how New Mexicans are suffering through the drought and of the 
challenges facing water managers. Every part of the state is facing its 
own drought-related issues.
    As noted previously, the State Engineer has recognized the need to 
actively manage and administer water rights and water uses. As the 
state's population and water demands grow, and given the frequency and 
severity of drought in the state, this will become increasingly urgent. 
Also as noted above, the ongoing legal challenges to the State 
Engineer's proposed Active Water Resource Management regulations has 
hampered the State Engineer's ability to exercise priority 
administration. Nevertheless, the advancement in measuring and 
metering; the hiring of water masters; and the various alternative 
administration schemes, including those cited here--rotation schedules 
on the Gallinas, the Pecos Settlement, supply sharing on the San Juan--
all demonstrate that the State Engineer's ability to manage and 
administer water uses around the state continues to improve.
    Finally, a major element of effective administration is the 
adjudication of water rights. Progress is being made on that front, as 
well. And the negotiation, settlement, authorization and partial 
funding of the Navajo Nation, Aamodt and Taos Indian water rights 
settlements are major elements of that progress.
    I would be remiss if I did not take this opportunity to thank 
Senator Bingaman for his continued assistance in helping to improve the 
state and its water users' ability to manage water resources both in 
times of drought and in times of plenty. That assistance has come in 
the form of funding to the federal water management agencies, support 
for endangered species programs and, most recently, in the Senator's 
heroic efforts to secure federal authorizing legislation and direct 
funding for the Indian water rights settlements.
    Thank you.

    The Chairman. Thank you very much. Corbin Newman, you're 
our final witness on this panel. We appreciate you being here 
as our Regional Forester. Go ahead.

    STATEMENT OF CORBIN L. NEWMAN, JR., REGIONAL FORESTER, 
 SOUTHWESTERN REGION, FOREST SERVICE, DEPARTMENT OF AGRICULTURE

    Mr. Newman. Thank you, Mr. Chairman. Thank you for bringing 
us together on this really important topic, one that's become 
all too common here in the Southwest and particularly in New 
Mexico.
    For me the most obvious and outward appearance of drought 
is forest fires, it's grass fires, it's woodland fires. I want 
to talk about those. But first I would like to highlight some 
of the connections that probably are more important in the long 
term that we look at.
    When we talk about drought, we think about it in sort of 3 
phases. The idea that you've got a panel here on climate change 
I think is critically important, because we think about drought 
today and how it affects our management that we need to carry 
on in our national forests particularly in fire.
    We think about the persistence of drought, how long has it 
been around. You know, decades-old changes in many, many things 
in what we do. Finally it's about climate change and how do we 
address the management of your national forests around climate 
change to make them more resilient and able to deal with those 
impacts that they have.
    Here in the Southwest we all know it's dry. All of our 
systems are fire adaptive. Fire has always been a component of 
the land around us. For us, though, it becomes more of, well, 
what has happened over the last century or half century.
    What we found is that the climate has really created more 
and more vegetation on the landscape that set us up for this 
current long drought that we've had to create these 
environments. Many of them we're seeing, like Cerro Grande and 
the Red Sky fire, their impacts on systems where fire is not 
behaving as it did in the past.
    For us that's one of the major emphases we have, is how do 
we restore some resilience to these landscapes? How do we bring 
them into an environment that's different today than maybe when 
they began 100 or 200 years ago.
    For us that becomes a major emphasis of long-term 
management of the national forests. We're making great progress 
here in the Southwest.
    As we think about the impacts of that drought today, as has 
been mentioned here, this year we're faced with some 
significant challenges. All of New Mexico is in drought, 
every--a little over 9 million acres of national forest system 
lands are affected by drought. The further south you go, the 
worse it gets.
    As we look at what our meteorologists are telling us, we 
expect that May will be dryer and warmer than normal. We expect 
an onset of the monsoons to come as they normally do. At least 
the odds are that will occur. But that means for the next 2 
months, 3 months we're going to have some significant issues 
around drought and its effect on national forests.
    As many of you know, the Last Chance fire is now 40,000 
acres burning outside of Carlsbad. It's one of those evidences 
of the things that we're finding are occurring now, sooner than 
what we have normally had.
    We have a Southwest coordinating group made up of the 5 
Federal land management agencies as well as the State foresters 
of Arizona and New Mexico that really are coordinating the 
resources and preparedness for this fire season. So I would 
like to talk a little bit about those so folks know what's 
being done.
    We saw early on that this onset was coming based upon what 
we saw in the first 3 months of this year and what the 
predictions were. So almost a month ahead of time we brought on 
significant firefighting resources into New Mexico to be 
prepared to deal with what we knew would be an active fire 
season.
    We brought in 2 helitankers, we brought in 3 air tankers. 
We put on 20 crews early in order to be able to deal with 
these. Now, unfortunately for the last few weeks, they've been 
mostly employed in Texas. But now they're all back home and 
work on the fires that are occurring here in New Mexico.
    For me that's one of the evidences of how well things are 
working in the Southwest amongst the folks who are taking care 
of wildland fire in the Southwest. The Southwest Coordinating 
Group is as strong as it's ever been. The partnerships are 
evident in the way that we're sharing resources and working in 
these interagency environments around fire.
    For me part of that is the result of many things you were 
involved in, Mr. Senator, a long time ago. The National Fire 
Plan is an example of how it brought together collective 
awareness about the need to collaborate and coordinate around 
fire, to leverage our resources to take advantage of all levels 
of government in our capabilities to fight fire.
    We fully expect that as we move forward in this season, 
that we'll be faced with many challenges around fire. But we 
feel we're well prepared for those with the steps that we've 
taken, to bring new resources into the area, to pre-stage them, 
to deal with fires such as the Last Chance. I think we're going 
to find that we're able to meet the challenges that are going 
to be in front of us.
    We also are moving forward to quickly and aggressively 
treat fuels. It's one of those programs that ramped up in 2001, 
2002. We have maintained a steady attack on hazardous fuels 
particularly around communities to do the best we can to 
protect communities from the effects of wildland fire.
    We expect we'll have again a good year of accomplishing 
many of those objectives. We intend to continue to try to build 
capacity inside the State of New Mexico to deal with those kind 
of activities.
    One of the things again I would like to thank you for is 
the CFRP program. That has had a tremendous effect not only in 
treating land, but to building institutional capacity and small 
businesses and communities to deal with this kind of effort.
    The panel today is meeting for this year's awards. So for 
me it's made a huge difference here in New Mexico and our 
ability to respond to these things quickly.
    There's much more I could say. But it seems like it's time 
I should stop. Hopefully we'll get a chance to respond to more 
things that are relevant in questions.
    Thank you.
    [The prepared statement of Mr. Newman follows:]

    Prepared Statement of Corbin L. Newman, Jr., Regional Forester, 
     Southwestern Region, Forest Service, Department of Agriculture

                              INTRODUCTION

    Mr. Chairman thank you for the opportunity to appear before you 
today to provide an overview of the current drought situation in New 
Mexico and how it relates to the status of the U.S. Forest Service's 
wildfire suppression capabilities in the Southwest Region.

                        WILDLAND FIRE MANAGEMENT

    The Forest Service, in cooperation with partner agencies in the 
Department of the Interior, is perhaps the premier wildland 
firefighting organization in the world. We work together with our 
State, local, and tribal government partners to maintain our 
operational excellence and continually improve the safety and 
effectiveness of the fire management program.
    The Forest Service takes seriously its role in managing wildfire 
with firefighter and public safety being the first priority in any fire 
management activity. We are prepared for the 2011 wildland fire season 
and are staffed to provide effective fire management.
    We will continue our commitment to aggressive initial attack of 
wildland fire, where appropriate, with full attention to firefighter 
and public safety. Last year, our initial attack success rate was 98%. 
Further, our commitment to informed, performance based strategies will 
reduce firefighter exposure to unnecessary risk during fire incidents. 
Additionally, we will continue to provide assistance to fire adapted 
communities that have been or may be threatened by wildfire to enable 
these communities to reduce future wildland fire risks. In providing 
this assistance, we will continue to make hazardous fuels treatment in 
wildland urban interface areas a priority, assist localities in 
building their response capability, and work collaboratively with local 
communities to understand the role of fire and find ways to mitigate 
risk and to foster individual responsibility for property protection. 
These commitments are fully in line with the recently completed 
National Cohesive Wildland Fire Management Strategy signed off by the 
entire wildland fire community: federal, tribal, States and local 
officials. The wildland fire community, through the auspices of the 
Wildland Fire Leadership Council, has developed the Cohesive Strategy. 
This ground breaking blueprint provides a common underpinning for all 
entities with statutory responsibilities for wildfire. This is a 
national collaborative effort among wildland fire organizations, land 
managers, and policy making officials representing federal, state and 
local governments, tribal interests, and non-governmental 
organizations. In addition, the federal, non-federal and tribal 
wildland fire management partners will continue work this fiscal year 
on Phase II, Development of Regional Assessments and Strategies, and 
complete the implementation of the Cohesive Strategy next year in Phase 
III, a national risk trade-off analysis.

                        FIRE RISK IN NEW MEXICO

    Wildland fire and wildland firefighting are influenced by a complex 
set of environmental and social factors. In recent years, fires across 
all jurisdictions have become larger, impacting more acres, due in part 
to persistent drought and hazardous fuels accumulations. In addition, 
the expansion of development in the wildland urban interface has 
increased the complexity of fighting wildland fire. These trends are 
not expected to change. In fact, it is expected that effects of 
persistent drought in some areas will continue to increase the 
probability of longer fire seasons and bigger fire events and declining 
forest health conditions in New Mexico. Unusually dry areas with above 
normal potential for significant fire will most likely expand westward 
across New Mexico through the spring and persist over much of the state 
from May through July (See Figure* Below).\1\ \2\
---------------------------------------------------------------------------
    * Figure has been retained in committee files.
    \1\ National Interagency Fire Center Predictive Services. http://
www.predictiveservices.nifc.gov/outlooks/monthly_seasonaloutlook.pdf
    \2\ ``See Text'' in figure refers to narrative description in the 
National Interagency Fire Center Predictive Services. Monthly seasonal 
outlook report. http://www.predictiveservices.nifc.gov/outlooks/
monthly_seasonal_outlook.pdf
---------------------------------------------------------------------------
                       WILDLAND FIRE PREPAREDNESS

    The 2011 wildland fire season has begun in many parts of the 
country. As of April 21, 2011 a million acres have burned this calendar 
year. Most of this has been in Texas and Oklahoma with 124,450 acres 
burned in New Mexico. The total number of acres burned is above the 
ten-year average for this time of year.
    To prepare for the 2011 fire season the Forest Service, along with 
our partners in the Department of the Interior, the tribes, and the 
States have worked to improve the efficiency and effectiveness of our 
firefighting resources. Fire managers assign local, regional, and 
national firefighting personnel and equipment based on anticipated fire 
starts, actual fire occurrence, fire spread, and severity. All federal 
and state wildland fire agencies are represented in the National Multi-
Agency Coordination Group. This group provides oversight to the 
National Interagency Coordination Center, located at the National 
Interagency Fire Center in Boise, Idaho, and coordinates wildland 
firefighting needs throughout the nation. Resources are prioritized, 
allocated, and, if necessary, re-allocated. Prioritization ensures 
firefighting forces are positioned where they are needed most. Fire 
resources such as personnel, equipment, aircraft, vehicles, and 
supplies are dispatched and tracked through an integrated national 
system. In New Mexico, firefighting resources are often mobilized from 
the northern Rocky Mountains in the spring, when fire season in the 
northern States is still low.
    If conditions become extreme and U.S. firefighting resources are 
determined to be in short supply, assistance is available under 
standing international agreements for firefighting forces from Canada, 
Mexico, Australia, and New Zealand. Under specified instances the 
Department of Defense, and specifically National Guard resources, may 
also be available to assist.
Firefighting Forces
    Responses to wildland fires in the United States involve not only 
the resources of the Forest Service, but also permanent and seasonal 
employees from other federal agencies, States, tribal governments, 
local governments, contract crews, and emergency/temporary hires. For 
the 2011 fire season, the available firefighting forces--firefighters, 
equipment, and aircraft--are comparable to those available in 2010 with 
more than 16,000 firefighters available from the Department of 
Agriculture and Department of the Interior. The levels of highly-
trained firefighting crews, smokejumpers, Type 1 national interagency 
incident management teams (the most experienced and skilled teams) 
available for complex fires or incidents, and Type 2 incident 
management teams available for geographical or national incidents, also 
are comparable to those available in 2010. Additionally, the Forest 
Service and the federal wildland fire fighting community work with 
State and local fire departments, which serve a critical role in our 
initial attack, and in many cases extended attack, success. We could 
not achieve the successes we have without them.
    For the Forest Service in the Southwestern Region of Arizona and 
New Mexico, there are 110 Forest Service wildland fire engines 
available for fire assignment along with an additional 40 engines from 
other agencies. This spring, the Southwest Area's 22 Type 1 crews 
(interagency hotshot crews) will be available nationally into 
September-October. The Southwest Area will start the season with 30--35 
Type II crews.
Aviation
    Nationally, the wildland firefighting agencies continue to employ a 
mix of fixed and rotor wing aircraft. The number of these aircraft may 
fluctuate depending on contractual and other agreements. Key components 
of the Forest Service 2011 aviation resources include 19 contracted 
large air tankers, up to 26 Type 1 heavy helicopters, 41 Type 2 medium 
helicopters on national contracts, and 52 Type 3 light helicopters on 
local or regional contracts. The Forest Service also leases 13 Aerial 
Supervision fixed-wing aircraft, owns and operates 1 fixed-wing and 2 
aerial supervision helicopters, owns 8 Smokejumper aircraft and 
contracts for an additional 4, owns 2 heat detecting infrared aircraft, 
and contracts 2 single engine air tanker aircraft (SEATs). 
Additionally, there are nearly 300 call-when-needed helicopters 
available for fire management support as conditions and activities 
dictate. The Forest Service maintains a contract for a 100-passenger 
transport jet to facilitate the rapid movement of firefighters during 
the peak of the fire season. The Forest Service also coordinates 
closely with the Department of Defense (DoD) in maintaining 8 Modular 
Airborne Fire Fighting Systems (MAFFS) that can be deployed in Air 
National Guard and Air Force Reserve C-130s. The MAFFS program provides 
surge capability for large fire air tanker support.
    Due to the fire risk in the Southwest, I have requested that 
``exclusive use'' Type 3 helicopters be located on the Gila National 
Forest (Silver City, New Mexico) and the Coronado National Forest 
(Sierra Vista, Arizona) earlier than usual. I have also requested that 
the national helitanker contract availability dates start three weeks 
earlier than normal with 2 heli-tankers stationed at tanker bases in 
Prescott, Arizona, and Silver City, New Mexico.
Budget
    The Forest Service Wildland Fire Management Account suppression 
funds for FY 2011 are similar to FY 2010. In addition, the Forest 
Service has enough carryover balances to allow us to respond to a worse 
than average fire season without transferring funds from non-fire 
accounts. The FLAME Wildfire Suppression Reserve Fund, established by 
the FLAME Act of 2009, is intended to minimize the need to transfer 
funds from non-fire accounts to the Wildland Fire Management 
Appropriation for fire suppression. Thank you, Mr. Chairman, for 
securing the FLAME account which has enabled the fire community to 
stabilize its fire budgeting.

          IMPACTS OF A CHANGING AND EXPANDING FIRE ENVIRONMENT

    The impacts of a high risk fire environment have adverse effects on 
natural resources and have socio-political ramifications as well. 
Wildfire has a natural and valuable role in many ecosystems helping to 
regulate forest and rangeland composition. Currently, many ecosystems 
across the country are out of ecological balance and are in need of 
restoration. This ecological imbalance results in ecosystems that are 
more threatened by wildfire due to factors such as increased fuel 
accumulation and infestation by invasive pests. These ecosystems 
contribute to higher fire risks and extreme fire behavior with severe 
fire effects such as significant impacts to municipal water supplies. 
By managing vegetation and restoring natural function and land 
resiliency, we can change fire behavior and the impacts of fire. 
Through a combination of mechanical treatment and managed fire, we can 
help improve the health of some fire adapted ecosystems and prevent 
heavy accumulations of highly flammable fuels. The Integrated Resource 
Restoration line item as proposed in the President's FY 2012 budget, is 
a needed tool that will enable the agency to get more of this work 
done. In FY 2010, the Forest Service treated over 2 million acres in 
hazardous fuels, with the majority of acres in the wildland urban 
interface. By mid-April 2011, we have already treated over \3/4\ of a 
million acres. In Arizona and New Mexico, to date we have treated over 
71,000 acres.
    Working closely with our partners, we are continuing to restore 
watersheds and reduce fuels to enable these forests to be more adaptive 
to stresses like drought. For example, prescribed fire treatments 
continue in the Santa Fe Watershed to reduce the probability of severe, 
high-intensity wildfire threatening the city's municipal watershed and 
impacting the local community and livelihoods. 7,000 acres of the 
Watershed were analyzed, followed by thinning and prescribed burning on 
5,260 acres. The city of Santa Fe hopes to fund analysis and treatment 
of an additional 1,000 acres in pine stands in the upper reaches of the 
Watershed.
    In addition, the Collaborative Forest Landscape Restoration Program 
(CFLRP) has become a very valuable tool in our adaptive and restoration 
efforts. The 210,000-acre Southwest Jemez Mountains project was one of 
10 CFLRP projects selected nationally and received $392,000 in 2010. 
The project which involves Santa Fe National Forest and its CFLRP fund 
partner, Valles Caldera National Preserve (VCNP), focuses on thinning 
and prescribed burning to restore more natural fire regimes. These 
efforts will be conducted over many ecosystems, from grasslands and low 
elevation pinon-juniper woodlands to upper montane coniferous, sub-
alpine and alpine forests and across multiple administrative 
boundaries. The project area chosen spans 12 small watersheds within 
the Jemez River Watershed and across boundaries of the Santa Fe 
National Forest, Valles Caldera National Preserve, and Jemez Pueblo. 
The cross-jurisdictional landscape presents an opportunity for 
collaboration among several agencies and stakeholders on the strategy 
of treatments.
    One community we are focusing on is Ruidoso as it is rated one of 
the ``most at risk'' communities in New Mexico. In 2006, the Lincoln 
National Forest and the Mescalero Apache Tribe signed the 16 Springs 
Stewardship Project under the authority of the Tribal Forest Protection 
Act (TFPA, Public Law 108-248). This was the first Forest Service 
stewardship contract under the TFPA authority, which permits the 
Federal Government to enter into contracts and agreements with American 
Indian Tribes for work on public lands bordering or adjacent to tribal 
lands.
    The project strategically thins identified forest stands, providing 
specialized employment in harvesting, transporting, and processing 
commercial saw logs and small-diameter biomass. Currently, the 
commercial saw logs provide and maintain jobs at small local sawmills 
and a pallet mill in El Paso, Texas. The small-diameter biomass 
generated will support a new wood pellet mill, currently under 
construction north of Alamogordo, and provide critical material for 
facility development and testing. In the future, the biomass will 
provide the Mescalero Apache Tribe with material to operate a 6-
megawatt power generation facility. The project has a cascading affect 
on maintaining and creating jobs within local tribal communities and 
area municipalities, enhancing the Mescalero Apache Tribe and Lincoln 
National Forest relationship.
    The fuel reduction work we do nationally not only reduces community 
fire risk, it is an important contributor to the economic health of 
many communities as many of the trees that are removed can go into 
milling infrastructure and create green jobs. We plan to match or 
exceed these accomplishments in the future.
    This concludes my statement. I would be happy to answer any 
questions that you may have.

    The Chairman. Thank you very much. Let me ask a few 
questions of each of you here.
    First let me just acknowledge Mayor Coss who came in. I 
expressed earlier the great appreciation for the use of your 
wonderful facilities here. Thank you very much. Thanks for 
coming by today.
    Let me also mention while we're all paying attention here, 
Tanya Trujillo who works with me on the Energy Committee in the 
Senate does a great job in a lot of respects. But particularly 
she is the one that did most of the work in getting this 
hearing organized. We appreciate her excellent effort.
    She sent me a note here or gave me a note indicating that 
all the testimony, the full testimony of all of our witnesses 
today will be on the website of our Energy Committee. That's 
energy dot Senate dot gov. So if any of you have an interest in 
reading through that testimony in full, it will be there.
    Let me ask the State Climatologist, Dr. DuBois: I think you 
were saying that predictions as to the so-called monsoons will 
be coming out soon? Do I take it that your office does 
predictions looking forward 90 days or some period of time and 
says this is what we can expect during the summer months or 
over the next several months or did I misunderstand that?
    Mr. DuBois. I don't do the predictions myself. I utilize 
the NOAA, basically the products that come out on a nationwide 
basis. They start at 1 month, 3 months, 6 months lead in 
advance. They're real broad predictions of the climate. You 
know, they will basically say it will be above normal or below 
normal or equal chance.
    Like, for instance, the monsoon for July, the 3 months of 
the summer. The predictions that I looked at yesterday said it 
was equal chance of either a wet or dry. So that's where I get 
my information.
    The Chairman. That's based primarily on the fact that 
historically, when we have had one of these La Nina situations 
and significant drought that came with that, it has been 
followed by a normal monsoon period; is that what you're 
saying?
    Mr. DuBois. Yes. On many cases there have--that's kind of 
what the past has shown us. The forecasts are based off of 
models and what's been in the past, sort of the climates in 
the--yes.
    The Chairman. OK. Let me ask, Esteven, your view as to what 
is the state of the efforts in communities around New Mexico 
with regard to water planning? Is all of this information about 
expectations on precipitation in the future, is this all being 
utilized by communities in making decisions about water usage 
and ordinances and those kinds of things as you understand it?
    Mr. Lopez. Mr. Chairman, I think that by and large 
communities are making use of that information. Obviously some 
are better--are doing better than others. But I can point to 
several examples.
    If you look at the community of--the communities of Santa 
Fe and Albuquerque, they're certainly diversifying their supply 
portfolios. They both now have surface water diversions and 
also diverse groundwater supplies. Albuquerque is looking at 
aquifer recharge and recovery.
    Las Cruces is also looking at diversifying its water supply 
portfolio. You've seen and I've talked about Las Vegas and the 
fact that they've got drought restrictions, that they're 
already--they're acting pro--in advance of the worst that we 
expect to see this year.
    Similarly Santa Fe has--Santa Fe and Albuquerque all act 
similarly. I think there are--planning efforts around the State 
are more and more utilizing these sorts of information in terms 
of communities making those decisions. But we can always 
improve.
    The Chairman. OK. Mr. Newman, let me ask you about--I think 
you referred to the Southwest Coordinating Groups. I'm just 
unclear. You talked about I think 20 different firefighting 
teams that were being brought in to deal with the expected 
problems that we have. A lot of those have been needed in 
Texas.
    How does that work? There's not a lot of national forest in 
Texas the last time I checked. How does it work that your 
firefighting teams wind up in Texas fighting grass fires, for 
example?
    Mr. Newman. Sure. When you talk about this coordinating 
group, this country has an immensely successful interagency 
structure for fighting wildland fire which includes grass, 
woodlands, forests. For instance, we have grasslands in Texas 
that we oversee here. It's a partnership.
    So State foresters along with the Park Service, the BLM, 
Forest Service, BIA, U.S. Fish and Wildlife Service, we join 
our forces together to attack fire when it occurs in the 
wildland wherever it may be. So it's sort of a mutual aid, if 
you will.
    So when it occurs, we have the ability to, if you will, 
mobilize and direct those resources across the country. In the 
Southwest we use the Southwest Coordinating Group to do that.
    Nationally we have an organization called NIFC in Boise 
that deals with the national interagency fire world. It helps 
move, if you will, resources around the country when needs are 
there, depending on where resources exist.
    Right now fire is occurring across the south. So from North 
Carolina over to Arizona, that's where most of the firefighting 
resources are in the country today, as they take on the fires 
before they begin to move to the north.
    So that's why we'll tend to move resources into Texas where 
fire is occurring and vice versa. If they didn't have any fires 
occurring there currently in New Mexico and we needed them, 
those resources would move to New Mexico.
    The Chairman. Since we're here in Santa Fe, could you just 
briefly describe what the Forest Service has done jointly with 
the city of Santa Fe to help reduce the risk of catastrophic 
fire here in the Santa Fe watershed.
    Mr. Newman. You bet. You know, one of the things that as I 
mentioned before, few people see the outward effects of drought 
other than fire when they think about the Forest Service.
    The reality is most of the water that flows in the streams 
in the Southwest come off the national forest system lands, 
either in Colorado or here in New Mexico and Arizona. So the 
condition of those lands are critically important to that flow 
of water.
    What we found is particularly where municipalities have a 
dependence on a watershed for a lot of their surface water 
flow, those are the ones that are most at risk. I think to the 
city of Santa Fe's credit, they saw that earlier on and 
realized something needed to be done that probably was not 
typical.
    Management was needed to lower, if you will, the risk of 
catastrophic fire that could have significant effects on both 
the quality and quantity of water they would get off of the 
Santa Fe watershed. So they entered a partnership.
    Creatively that's being looked at across the country to 
begin to help water users realize that connection, to take 
money that water users pay and invest in those watersheds with 
the Forest Service.
    So we've treated I believe about 7,200 acres through 
thinning and prescribed fire. We've got about probably 300 
acres left to finish the cleanup from the original thinning 
work and then continue to use fire to keep those fuels at a low 
level so fire, when it does occur in the watershed, will not be 
catastrophic.
    The Chairman. Now, this thinning has the effect of heading 
off catastrophic fires in the area that's thinned. Does it also 
have the effect of increasing the availability of water or the 
amount of water coming off of the watershed for use by the city 
of Santa Fe?
    Mr. Newman. To a certain degree. Of course, it depends on 
how much water actually is input into the system, how much rain 
you get in a particular year. But I always liken it to trees 
are like straws. They're in the ground and they pull water out 
and they transpire it.
    So the more we have density management, fewer trees on that 
landscape, the more water can really land on the ground and 
filtrate or run off. There's less interception, less 
evaporation. So it creates that ability.
    But the real value there I believe when you look at the 
treatments is lowering the risk that that--that a significant 
fire could impact that watershed that would change it for 
decades, if not a century.
    The Chairman. OK. I gather the same kind of thing has 
occurred in Southern New Mexico, particularly around the 
Ruidoso area?
    Mr. Newman. Yes, Ruidoso being one of the most threatened 
communities in the country. We've focused a lot of energy 
working with various entities including Mescalero in how do we 
go about collaboratively treating that area to reduce the 
chance of catastrophic wildfire.
    A significant issue because it's very, very expensive. 
We're trying to find economical ways, create industries that 
can utilize that material so we can treat an ever greater 
number of acres. But great progress has been made in treating 
around Ruidoso.
    Ruidoso Downs was the next on the list. We had the White 
fire down there that had a--will have a significant effect on 
Ruidoso Downs this summer. Monsoons there are not going to be 
welcome.
    The Chairman. Yes. This is very useful testimony. I 
appreciate it very much. I thank all three of you on this first 
panel. We will include the full testimony that you've prepared 
as part of our committee hearing record. Thank you very much.
    Why don't we go ahead with the second panel. If they would 
come forward please.
    [Pause.]
    The Chairman. OK. Why don't we go ahead here. As I 
indicated before we started, at the beginning of the hearing, 
the second panel is to focus on the impacts of climate change 
on water supplies and particularly to highlight the report that 
was issued by the Bureau of Reclamation earlier this week in 
response to the SECURE Water Act.
    Let me introduce our panel members. Honorable Michael 
Connor who is the Commissioner of the Bureau of Reclamation. 
Dr. Jonathan Overpeck who is codirector of the Institute of the 
Environment at the University of Arizona in Tucson. Thank you 
for being here. Dr. Brian Hurd who is associate professor of 
agricultural economics and agricultural business at New Mexico 
State in Las Cruces.
    I appreciate you all being here. Let me just--before I let 
Mike go ahead with his testimony. Mike was working with us in 
the same kind of--same position that Tanya now is working with 
us on our Energy and Natural Resources Committee when the 
legislation, the SECURE Water Act, was drafted up.
    He's the person primarily responsible for getting that done 
and getting it passed. Now he's the person primarily 
responsible for getting it implemented. So he deserves great 
credit for what progress has been made on this subject and for 
the report that he's going to talk about today. So, Mike, go 
right ahead.

   STATEMENT OF HON. MICHAEL CONNOR, COMMISSIONER, BUREAU OF 
                          RECLAMATION

    Mr. Connor. Thank you, Mr. Chairman. I found out that's 
much easier to think up great ideas than to implement them.
    The Chairman. I heard a great comment a year or 2 ago. 
Someone said that now--this was in connection with healthcare 
legislation. They said, you know, now they're going to find out 
what Moses found out 2,000 years ago, it's a lot easier to 
write it down than it is to get it done. So go ahead.
    Mr. Connor. For the record I'm Mike Connor, Commissioner of 
the Bureau of Reclamation. I thank you for the opportunity to 
discuss the water issues in New Mexico this year and the longer 
term subject of climate change and its affect on Western water 
supplies.
    I would like to start by discussing the current water year 
in New Mexico. As noted the entire State is in drought. The Rio 
Grande has seen lower than average precipitation and higher 
than average temperatures. The Pecos River Basin has been even 
drier, with only 51 percent of average precipitation for this 
date.
    These factors coupled with below average carryover storage 
in both systems do not bode well for conditions in the spring 
and summer unless significant spring and summer precipitation 
occurs. Also while current conditions and projections are 
positive for the Upper Colorado River Basin, a warming trend 
during April has the potential to erode the above-average 
conditions we're presently seeing.
    The dry hydrology in the Rio Grande and Pecos River Basins 
are of a significant concern to Reclamation with respect to its 
operations in New Mexico. In the Middle Rio Grande, we are 
working closely with the State, our contractors, and other 
interested parties to ensure there is sufficient water to meet 
endangered species' needs and still maintain water operations 
in 2011.
    Notwithstanding these actions, it is expected that 
reservoir levels will fall over the course of the year. This 
situation lends urgency to our efforts to put a new long-term 
Biological Opinion in place upon expiration of the existing 
opinion at the end of 2012.
    In the Pecos Basin, Reclamation is working closely with its 
partners to acquire additional water that will provide 
sufficient flows for meeting the 2006 Biological Opinion, 
assist in meeting Pecos River Compact obligations, and provide 
efficient irrigation deliveries.
    The Fish and Wildlife Service and Reclamation are 
monitoring conditions and adjusting plans for reduced in-river 
flow conditions on the Pecos so that the available supply is 
optimized for the Pecos blunt-nosed shiner while still meeting 
downstream needs.
    To the west and north of here on the Colorado River, the 
upper basin of the Colorado has received healthy, above-average 
precipitation so far this year, 120 percent as of April 4. The 
April to July inflow forecast to Glen Canyon Dam/Lake Powell, 
which represents the bulk of the inflow, increased 4 percent 
last month to 120 percent of average.
    A favorable precipitation situation will allow for an 
equalization operation between Lakes Powell and Mead, bringing 
Lake Mead's storage closer to that of Lake Powell's. While 
encouraged by the water availability this year, we would 
caution that it's too early to say that we are out of the long-
term drought we've been facing since the year 2000 in this 
basin.
    A final note on this year's water supply challenges. Our 
ability to successfully react to and address drought conditions 
requires significant planning, not simply a reactive approach. 
Our infrastructure has allowed Western water users to withstand 
significant boom and bust cycles of water supply over the last 
100 years.
    Today the stresses on existing supplies are so significant 
that there needs to be new institutional and on-the-ground 
preventions to address future droughts. More flexibility needs 
to be built into our water system such as more diversified 
reserve supplies, efficient markets for short-term water 
transfers, and the creation of new habitats to improve the 
resiliency of important ecosystems. I think Esteven's testimony 
earlier touched on all those points.
    If we aren't proactive, then most likely the only way to 
address drought is to try and mitigate economic losses. On this 
point I would like to segue to the issue of future challenges 
to New Mexico's water supplies and that of the rest of the 
West.
    Climate change and the prospects for reduced water supplies 
over time are areas of special emphasis and study at the 
department. Last year, on March 16, this committee held a 
hearing on a departmental program called WaterSMART, which 
stands for Sustain and Manage America's Resources for Tomorrow.
    The WaterSMART program focuses the efforts of Reclamation 
and the U.S. Geological Survey on improving water conservation 
and helping resource managers make strategic decisions about 
water use.
    Much of my statement here today will review WaterSMART 
activities. But I would also like to discuss future activities 
and where the current research on climate change is pointing.
    As a threshold, Mr. Chairman, I'd like to return the favor 
and acknowledge and thank you for your leadership in this area. 
A number of the actions I'm going to discuss were authorized by 
the legislation you authored, specifically the SECURE Water 
Act.
    This legislation was enacted as part of the landmark 
Omnibus Public Lands Package that you managed, Secretary 
Salazar strongly advocated for, and President Obama signed into 
law in March 2009.
    This legislation overall including the SECURE Water Act 
will benefit the entire Nation well into the 21st century. The 
science is clear that climate change will add to the challenges 
we face in managing our water supply, water quality, flood 
risks, aquatic ecosystems, and energy production.
    Certainty and sustainability are the goals Reclamation 
strives for in the use of the West's limited water resources. 
Climate change strikes at the heart of those goals. We simply 
need to adapt.
    Earlier this week the department published the report 
called for under Section 9503 of the SECURE Water Act. The 9503 
report synthesizes existing literature on climate change. It 
also features an original assessment of climate change 
implications for snow pack, hydrology, and overall water supply 
in 8 major river basins in the West.
    We've got some graphics up there to show those impacts and 
where they lie with respect to those river basins.
    The 9503 report affirms and adds more analysis to the 
scientific studies which include in the 21st century, 
temperatures may continue to increase by roughly 5 to 7 degrees 
Fahrenheit in the Western United States. This increase is in 
addition to the approximate 2 degree average Fahrenheit 
increase that's been experienced across much of the West during 
the 20th century.
    As discussed in the report, warming temperatures will 
significantly impact Western water management. The quantity of 
what's available, water supply will change, some increases, 
some significant decreases. Timing of available supplies will 
change.
    April 1st snow pack decreases in all basins. Demand for 
water will likely increase with increasing temperatures. 
Environmental issues will likely be exacerbated for aquatic 
ecosystems. Finally energy use and generation is likely to be 
affected.
    Speaking to the basins of primary concern to New Mexico, in 
the Colorado River Basin, the amount of increase varies 
geographically and seasonally but is roughly between 5 to 6 
degrees Fahrenheit.
    This temperature increase is changing the dynamics of the 
basin and changing the growing season with spring coming 
earlier. Overall annual runoff is projected to decrease by an 
average of 8.5 percent by the year 2050.
    Although as a result of this year's good precipitation in 
the Colorado River Basin and the prospects for lower basin 
shortages in 2012 have been eliminated, the risks of shortage 
in the lower basin are expected to increase over time to about 
40 percent in the year 2026.
    Risks can be reduced through alternative water management 
strategies. Reclamation in cooperation with stakeholders basin-
wide is aggressively pursuing investigation of such studies in 
its WaterSMART basin studies which I'll describe in more 
detail.
    In the Rio Grande Basin, first our report shows it will be 
perhaps the most heavily impacted river basin in the West. To 
be clear the report does discuss the uncertainties that still 
exist in projecting future precipitation patterns and runoff.
    Notwithstanding the use of the best available science, 
those models still have some inherent uncertainty. Nonetheless, 
the highly likely 5 to 6 degree Fahrenheit increase in average 
temperature during this century will have a strong impact on 
the basin.
    Mean annual runoff is projected to decrease by 7.3 percent 
to 14.4 percent in the Rio Grande Basin by 2050, with late 
season flows most significantly decreased. These are the post-
April 1st flows which are projected to decrease by 14 to 16 
percent by 2050.
    As noted earlier water management systems across the West 
have been designed to operate within wide envelopes of 
hydrologic variability, handling variations from season to 
season and year to year.
    These systems were designed with local hydrologic 
variability in mind. As a result their physical and operating 
characteristics vary depending on storage capacity and 
conveyance flexibility.
    For example, the Colorado River Basin has a relatively 
large amount of storage relative to annual runoff compared to 
the California River Basin and the Columbia River Basin.
    Accordingly, the assessment of water management impacts and 
appropriate responses must be done on a local or regional 
level. This is the approach taken within Reclamation's Basin 
Studies Program and West-Wide Climate Risk Assessments.
    In our fiscal year 2012 budget requests, Reclamation is 
seeking a total of $53.4 million for the WaterSMART Program, of 
which the Basin Studies and West-Wide Risk Assessments are a 
part.
    The request of $1 million for the Risk Assessments will 
continue Reclamation's development of consistent baseline 
projections of risks to Reclamation's operations due to climate 
change. We're going to start a major part of the Risk 
Assessments here in the Rio Grande Basin.
    Funding of $2.5 million will support the Basin Studies 
through which Reclamation will continue to evaluate the ability 
to meet future demands within a river basin and to identify 
adaptation strategies where water supply and demands may not be 
in balance.
    The purpose of the Risk Assessment is to identify and 
examine water supply and demand imbalances so that Basin 
Studies can analyze how those imbalances impact operations. The 
Basin Studies may then develop strategies to mitigate or adapt 
to operations.
    The Colorado River Basin Study, which is a partnership of 
the 7 Colorado River Basin States including New Mexico as well 
as other interested entities, is our largest scale basin study.
    In 2012 Reclamation will begin providing funding for 
specific feasibility studies for actions to adapt to and 
address climate change impacts through the WaterSMART Basin 
Study Program. We will also continue our support for 
conservation efficiency improvements through the WaterSMART 
grant program, the Title 16 water reuse programs, and our river 
restoration activities.
    As I identified in my written statement, adapting to 
improve water management and infrastructure upgrades, including 
improvements in our hydroelectric and environmental-related 
facilities, is a very active area for the Bureau of 
Reclamation.
    Before concluding I would like to mention the USGS Section 
9506 report that was released for public review earlier this 
month. As you know the SECURE Water Act called for a report 
assessing the adequacy of water resources measurement, 
modeling, and data sharing systems that are relevant to climate 
change adaptation.
    USGS has taken the lead in preparing the report in 
collaboration with many agencies at the Federal and State 
level. In sum the report discusses the need and opportunity to 
modernize data networks and climate-relevant data collection, 
data management, mapping, modeling, and information 
dissemination.
    Through this report and its water availability end-use 
assessment, USGS is ensuring that sound science is the 
foundation for present and future water resources management.
    Chairman Bingaman, once again I would like to thank you for 
your leadership this area. If I could just take a couple 
minutes, I would like to clarify something with respect to the 
SECURE Water Act.
    As I noted the SECURE Water Act was your bill. In April 
2008 the Santa Fe New Mexican published an editorial lauding 
the bill and the good science that it was going to promote. But 
within that editorial the New Mexican stated about the bill--
and I'm going to quote this. ``It's got one of those too-cute 
acronyms as a name, the SECURE[Science and Engineering to 
Comprehensively Understand and Responsibly Enhance] Water Act. 
Westerners long in need of such legislation no doubt will 
forgive whoever thought up that mouthful as long as it doesn't 
turn away prospective supporters.'' So the good news is----
    The Chairman. I think you're the one who thought up that 
name.
    Mr. Connor. I was going to come clean on that point. I'll 
confess I attribute the ideas and the programs within the bill 
to your great leadership. I'll take the blame for the name 
because it was mine. But we're pleased to be implementing that 
bill. I'll take questions at the proper time.
    [The prepared statement of Mr. Connor follows:]

  Prepared Statement of Hon. Michael Connor, Commissioner, Bureau of 
                              Reclamation

    Chairman Bingaman, Ranking Member Murkowski and members of the 
Committee, I am Mike Connor, Commissioner of the Bureau of Reclamation 
(Reclamation) at the Department of the Interior (Department). Thank you 
for the opportunity to testify before the Committee today regarding the 
water supply situation in New Mexico and within the Colorado River 
Basin, as well as the longer-term subject of climate change and its 
effect on western water supplies. These are areas of special emphasis 
and study at the Department, and as a long-term New Mexican, I am 
pleased to report on the many activities we have underway.
    Last year on March 16, 2010, the Water and Power Subcommittee of 
this Committee held a hearing on a Department program called WaterSMART 
(Sustain and Manage America's Resources for Tomorrow). The WaterSMART 
program provides the foundation for the Department's efforts to achieve 
a sustainable water supply for this country. It includes efforts of 
Reclamation and the U.S. Geological Survey (USGS) to improve water 
conservation and help water-resource managers make sound decisions 
about water use. It is a prominent feature in the Department's Fiscal 
Year 2012 budget request. WaterSMART was established pursuant to 
Secretarial Order 3297, and the Program functions as the Department's 
implementation of the SECURE Water Act, Title IX Subtitle F of Public 
Law 111-11. Much of my statement today will review WaterSMART 
activities to date, but I'd also like to discuss future activities and 
where the current research on climate change is pointing the Department 
and Reclamation.
    The science is quite clear that climate change will add to the 
challenges we face in managing our water supply, water quality, flood 
risks, wastewater, aquatic ecosystems, and energy production. These new 
stresses are likely to be felt first in the western United States, the 
fastest growing region of the nation. From 2000 to 2010, Nevada grew 
the most at 35.1 percent, followed by Arizona, Utah, Idaho and Texas. 
Nevada is the only state that has maintained a growth rate of 25.0 
percent or greater for the last three decades,\1\ with some of the 
fastest growth in the driest areas.
---------------------------------------------------------------------------
    \1\ Source: U.S. Census Bureau, Population Distribution and Change: 
2000 to 2010. Summary online at http://www.census.gov/newsroom/
releases/archives/2010_census/cb11-cn124.html
---------------------------------------------------------------------------
    Earlier this week, the Department published the report called for 
under Section 9503(c) of the SECURE Water Act (Report). The Report 
synthesizes existing peer-reviewed literature on climate change, and 
also features an original assessment of climate change implications for 
snowpack and natural hydrology. The Report provides a presentation of 
Reclamation's work to date on assessing the effects and risks from 
global climate change on water resources in each major Reclamation 
river basin; the impact of global climate change on operations in each 
of these basins; mitigation and adaptation strategies to address global 
climate change; and each coordination activity conducted by the 
Department within Federal and state water resource agencies.
    The Report re-emphasizes other scientific studies which conclude 
that in the 21st century temperatures may increase by roughly 3 to 4 
degrees Celsius (C) in the Western United States. This increase is in 
addition to the approximate 1-2 C average warming experienced across 
much of the West during the 20th Century. Also, in the coming years, it 
is likely that the northwestern and north central portions of the 
United States will have greater rainfall (e.g., Columbia and Missouri 
basins), while the southwestern and south central portions are expected 
to have less precipitation (e.g., San Joaquin, Truckee, middle to lower 
Colorado, and Rio Grande basins). For the areas in between trends in 
precipitation have not yet been identified, though increasing 
temperatures may still affect water supply availability (e.g., Klamath 
and Sacramento River Basins). April 1st snowpacks are projected in the 
Report to decrease for almost all of the Western United States and 
annual water supplies may change, with the peak flow in snow-pack 
dominated watersheds occurring earlier.
    Speaking to the Colorado River Basin specifically, the Report shows 
that the entire basin experienced an increase in temperature in the 
20th century. The amount of increase varies geographically and 
seasonally, but is roughly between 1 and 3 C. This temperature 
increase is changing the dynamics of the basin, identified through 
measurement of the number of frost-free days, length of the frost-free 
season, and in the growing season length (spring is coming earlier). 
Results from climate simulations indicate a high degree of agreement on 
projected changes in temperature. Temperature is projected to increase 
by 1 to 2 C by 2040, 2 to 2.75 C by 2070 and by up to 4 C by the end 
of the 21st century.
    Precipitation changes in the basin are more variable than 
temperature and the distribution of these changes are more complex. 
Precipitation variability is tied to ocean dynamics, in particular, sea 
surface temperatures in the Atlantic and Pacific Oceans. This partially 
explains why Colorado River Basin precipitation varies through time. 
However, the period from 2000 to 2010, inclusive, has been the driest 
11-year period in the 100-year historical record on the Colorado River 
Basin. It is unknown whether this current drought can be attributed to 
climate change, as stream flow records reconstructed from tree-rings 
indicate that droughts of this magnitude have occurred in previous 
centuries. However, several scientific studies have concluded that the 
recent drought is likely a harbinger of future conditions. Modeled 
projections for precipitation indicate that there may be an increase in 
the Upper Colorado River Basin and a decrease over the more arid 
regions within the Lower Colorado River Basin.
    Despite the significant range of potential changes in precipitation 
patterns and quantities, the temperature driver is anticipated to 
continue to alter snowpack conditions within the Colorado River Basin. 
The trend towards earlier spring runoff is expected to continue, 
changing the time when snowpack melts and the dynamics of runoff. These 
changes are already apparent in that the snowpack in the Colorado River 
Basin has been experiencing a general decline in the spring, reduced 
fractions of winter precipitation occurring as snowfall, and earlier 
snowmelt runoff. Reduced mountain snowpack, earlier snowmelt, and 
reductions in spring and summer streamflow volumes originating from 
snowmelt could trigger increased reliance on ground water resources. 
However, warmer, wetter winters could increase the amount of water 
available for ground water recharge, but this is an area that is poorly 
understood and in need of further study.
    Many studies investigating changes in Colorado River streamflow 
have been conducted in recent years; in combination, they project 
reductions from 6 to 20 percent by the middle of the 21st century. The 
risks of shortage to users in the lower Colorado River Basin (as 
defined in Reclamation's Interim Guidelines for Lower Basin Shortages 
and Coordinated Operations of Lakes Mead and Powell)\2\, although 
averted in 2012 due to a reasonably good snowpack and runoff this year, 
are expected to increase over time to about 40 percent in 2026. With 
current water management strategies throughout the Colorado River 
Basin, risks of full reservoir depletion are less than 5 percent 
through 2026, however these risks increase significantly between 2026 
and 2057, inclusive. Risks can be reduced through alternative water 
management strategies, and Reclamation, in cooperation with 
stakeholders Basin-wide, is aggressively pursuing investigation of such 
studies in its WaterSMART Basin Study, which I will describe in more 
detail below.
---------------------------------------------------------------------------
    \2\ http://www.usbr.gov/lc/region/programs/strategies/
documents.html
---------------------------------------------------------------------------
    It is not possible to infer water management impacts, nor develop 
adaptation strategies, simply from these runoff changes alone. Water 
management systems across the west have been designed to operate within 
wide envelopes of hydrologic variability, handling variations from 
season-to-season and year-to-year. These systems were designed with 
local hydrologic variability and demand patterns in mind, and as a 
result, their physical and operating characteristics vary depending on 
storage capacity and conveyance flexibility. For example, the Colorado 
River Basin has a relatively large amount of storage relative to annual 
runoff compared to California basins, and particularly relative to the 
Columbia basin. Each basin or Reclamation project also has different 
constraints in which it operates including providing hydropower, 
managing floods in conjunction with the U.S. Army Corps of Engineers, 
delivering water to agricultural and municipal water users, and 
supporting the recovery of threatened and endangered species. The 
ability to use storage resources to mitigate future hydrologic 
variability, changing water demands, constraints on operations, and 
changes in runoff seasonality are key determinants of whether these 
natural runoff changes will translate into significant management 
impacts. Assessment of these water management impacts on a local level 
is the subject of ongoing activities within Reclamation's Basin Studies 
Program and West-Wide Climate Risk Assessments (WWCRAs).
    In its Fiscal Year 2012 budget request submitted to Congress in 
February, Reclamation requested $58.9 million for the WaterSMART 
Program, of which the Basin Studies and WWCRAs are a part. Beyond the 
initial Report, the request of $1 million for the WWCRAs will continue 
Reclamation's development of consistent and comprehensive baseline 
projections of risks and impacts to Reclamation operations due to 
impacts of climate change. Funding of $2.5 million will support the 
Basin Studies, through which Reclamation will continue to work with 
state and local partners to evaluate the ability to meet future water 
demands within a river basin and to identify adaptation strategies 
where water supply and demands may not be in balance. Basin Studies 
benefit from results generated through the WWCRAs. The purpose of the 
WWCRA is to identify and examine water supply and demand imbalances so 
that the Basin Studies can analyze how those imbalances impact 
operations. The Basin Studies may then develop strategies to mitigate 
or adapt to impacts to operations. The Fiscal Year 2012 Budget Request 
included $6.0 million for Basin Studies. As an example, the Colorado 
River Basin Study is focusing on a more detailed, basin-wide assessment 
of risk to Colorado River Basin resources from future water supply and 
water demand imbalances and identification and evaluation of strategies 
to resolve future imbalances and mitigate risks. As a separate activity 
from the work developed for the Report, Colorado River Basin 
stakeholders throughout the Basin are heavily engaged in the Colorado 
River Basin Water Supply and Demand Study.
    The Colorado River Basin Study contains four major phases: water 
supply assessment, water demand assessment, system reliability 
analysis, and development and evaluation of opportunities for balancing 
supply and demand. A scenario planning process has been undertaken to 
provide a framework to incorporate the high degree of uncertainty in 
the assessment of future water supply and water demand. This process, 
which includes input from stakeholders throughout the Colorado River 
Basin, is being used to develop a broad range of plausible scenarios of 
future supply and demand. Four water supply scenarios have been 
formulated and quantified, one of which incorporates future climate 
projections from Global Climate Models. The remaining three water 
supply scenarios use approaches applied to observed and 
paleoreconstructed streamflow records. Four water demand scenarios also 
have been identified that incorporate plausible future trajectories 
related to demographics and land use, technology and economics, and 
social and governance factors.
    All of this work is geared toward providing very real-world, 
practical results: preparing our facilities to continue delivering 
benefits in the future. Reclamation's customers--farms, cities, power 
users, recreationalists and our ecosystem programs--all rely on the 
stability provided by the existing water infrastructure in the West. In 
2012 Reclamation will begin providing funding for specific feasibility 
studies for actions to address climate change impacts through the 
WaterSMART Basin Study Program. Funding for the studies will require a 
50 percent non-Federal cost share, and will pursue strategies 
previously identified in Basin Studies or equivalent appraisal level 
analyses. Potential areas include the Colorado, Columbia, Klamath, 
Missouri, Rio Grande, Sacramento, San Joaquin, and Truckee rivers, to 
be determined by Reclamation and its partners. In addition, a 
WaterSMART Funding Opportunity Announcement (FOA) was published by 
Reclamation and the Department of Agriculture's Natural Resources 
Conservation Service (NRCS) at the end of 2010 inviting irrigation 
districts, water districts and other organizations to apply for 
conservation projects. In partnership with Reclamation, NRCS will 
provide funding and technical assistance to farmers and ranchers 
eligible for on-farm conservation practices through the WaterSMART 
program.
    In addition to these programs, Reclamation is completing major 
projects to recover power plant generating capacity and efficiency in 
the face of a more than 100-foot decline in the level of water in Lake 
Mead. These projects include installing new turbine components and 
modifying or adjusting existing turbine components to increase 
generation capacity available when the lake level is low. As a result, 
the total increase in generating capacity achieved at Hoover Dam to 
date is 93 megawatts (MW), and an additional 7 MW is scheduled for May 
2011. Reclamation is also replacing existing turbine runners to wide 
range turbine runners to improve efficiency and provide wide range 
turbine operation at Glen Canyon and Hoover power plants.
    As you can see, Reclamation's activities in the face of drought and 
potential climate change impacts are many and varied. In addition to 
the Programs described above, Reclamation also works with its many 
partners on a day-to-day basis to better understand and incorporate 
climate information into western water resource management as well as 
in the implementation of Section 9503 of the SECURE Water Act. These 
partnerships include:

  <bullet> Through the WaterSMART Program Task Force, each bureau and 
        office under the Department is tasked to use available program 
        discretionary authorities, within the scope of its mission. The 
        Task Force is responsible for working within existing 
        relationships and developing new partnerships between Federal 
        agencies, States, and tribes to collaborate on implementation 
        of WaterSMART. Through the WaterSMART Basin Studies, 
        Reclamation is partnering with local water and power delivery 
        entities to develop mitigation and adaptation strategies to 
        meet any water supply and demand imbalances that may exist now 
        and in the future. As noted above, within the Colorado River 
        Basin Water Supply and Demand Study, Reclamation is partnering 
        with the seven basin States (New Mexico, Arizona, Colorado, 
        Utah, California, Nevada, and Wyoming). Similar partnerships 
        exist for other basin studies.
  <bullet> Secretarial Order 3289 established the Department's 
        coordinated approach to dealing with climate change through the 
        Landscape Conservation Cooperatives (LCCs) and Climate Science 
        Centers. Reclamation's collaboration within the LCC framework 
        is part of its WaterSMART implementation. Each LCC functions in 
        a specific geographic area and will form a national and 
        international network for applied science to inform resource 
        management. Over the past year, Reclamation and the U.S. Fish 
        and Wildlife Service have formed broad-based scoping committees 
        for the Desert and Southern Rockies LCCs, with participation by 
        multiple State and Federal agencies, non-governmental 
        organizations, tribes and universities. The steering committees 
        for the Desert and Southern Rockies LCCs will be established in 
        April 2011. Reclamation plans to integrate and coordinate its 
        WaterSMART activities with the LCCs. Additionally, the Bureau 
        of Reclamation has begun working with the DOI Climate Science 
        Centers and National Climate Change and Wildlife Science Center 
        to identify develop and begin research specific to water 
        management.
  <bullet> In 2008, Reclamation collaborated with the U.S. Army Corps 
        of Engineers, National Oceanic and Atmospheric Administration 
        (NOAA), and the USGS to form the Climate Change and Water 
        Working Group (CCAWWG) to bring water managers and climate 
        scientists together to identify common information gaps to 
        assess, forecast, and adapt to climate change impacts on 
        Western water supplies. Additional CCAWWG Federal participants 
        include the Environmental Protection Agency, Federal Emergency 
        Management Agency, and National Aeronautics and Space 
        Administration; non-Federal participants include the Western 
        States Water Council; local municipal water authorities; NOAA's 
        Regional Integrated Science and Assessment (RISA) Centers; and 
        the National Center for Atmospheric Research.
  <bullet> Department of Commerce--NOAA--Reclamation continues to 
        collaborate with NOAA Regional Integrated Science Assessment 
        (RISA) teams and regional climate centers in the western U.S. 
        to assist in developing climate information to support 
        stakeholders in a variety of sectors, including identifying 
        information needs, development of decision support tools 
        related to climate variability and change, and data selection, 
        interpretation, and understanding. These centers include the 
        Climate Decision Support Consortium, the California-Nevada 
        Applications Group, the Western Water Assessment, the Climate 
        Assessment for the Southwest, and the Southern Climate Impacts 
        Planning Program. Reclamation also continues to collaborate 
        with the former RISA center at The University of Washington, 
        the Climate Impacts Group. In addition to engaging with RISA 
        centers, we are collaborating with NOAA Earth System Research 
        Laboratory to better understand the science surrounding climate 
        variability and climate change.
  <bullet> NRCS--NRCS's Snowpack Telemetry network provides an 
        extensive, automated system designed to collect snowpack and 
        related climate data in Alaska and the western United States 
        which is used to produce water supply forecasts. NRCS's Soil 
        Climate Analysis Network (SCAN) is an information system 
        designed to provide data on soil moisture and climate 
        information from a number of different sources also used in 
        forecasting.
  <bullet> The Department of Interior participates on the Interagency 
        Climate Change Adaptation Task Force, co-chaired by the Council 
        on Environmental Quality, the National Oceanic and Atmospheric 
        Administration, and the Office of Science and Technology 
        Policy.  The Task Force works with Federal agencies to identify 
        actions to better prepare the United States to respond to the 
        impacts of climate change. The October 2010 Progress Report of 
        the Task Force recommends that the Federal Government implement 
        actions to expand and strengthen the Nation's capacity to 
        better understand, prepare for, and respond to climate change. 
        The Task Force's work has been guided by a strategic vision of 
        a resilient, healthy, and prosperous Nation in the face of a 
        changing climate. Reclamation participates on the Water 
        Resources and Climate Change Adaptation Workgroup that supports 
        the Task Force and is developing the National Action Plan for 
        adaptation of freshwater resources management to climate change 
        called for in the October 2010 Progress Report of the 
        Adaptation Task Force (see the October 2010 Progress Report of 
        the Task Force for more information).
  <bullet> Finally, I'd like to note that the Administration recently 
        transmitted a report to Congress that was required in Section 
        9506 of the SECURE Water Act. Section 9506 of the Omnibus 
        Public Lands Act (Public Law 111-11) calls for a report to 
        Congress on the adequacy of water resources measurement, 
        modeling, and data sharing systems that are relevant to climate 
        change adaptation. The Nation invests considerable resources in 
        monitoring, mapping, evaluating, assessing, modeling, and 
        managing water resources. Many of the existing observational 
        water data networks, models, and hydro-statistical methods were 
        developed for specific users and pre-date recent advances in 
        climate change science. As a result, these systems (networks, 
        methods, and models) were not designed to account for the 
        effects of a changing climate on water resources, or to 
        evaluate the effectiveness of climate change mitigation and 
        adaptation strategies. Today, there is a need and an 
        opportunity to modernize data networks and climate-relevant 
        data collection, data management, mapping, modeling, and 
        information dissemination. Of particular importance is 
        maintenance and strengthening of long-term ground-based and 
        remote observational capabilities to detect change. The report 
        addressing these concerns has been reviewed by the multiagency 
        panel authorized in Section 9506(a), and a draft version is out 
        for public comment. The panel looks forward to presenting its 
        findings to the Secretary for transmission to Congress.
      hydrology--colorado river and new mexico water supply, 2011
    Apart from the longer-term topic of west wide climate change, the 
other focus of the Committee today is the near-term water supply 
picture on the Colorado River and here in New Mexico for 2011. We've 
discussed long-term trends on the Colorado above, so let me turn now to 
the Rio Grande.
    In New Mexico, predictions of a strong La Nina, with drier 
conditions expected in the Rio Grande and Pecos river basins, are 
proving accurate this year based on the early season conditions in 
these basins. The Rio Grande is seeing lower than average precipitation 
(80 percent as of April 17), and higher than average temperatures. The 
Pecos River Basin has been even drier, with only 51 percent of average 
water year precipitation for this date (April 17). These factors, 
coupled with below average carryover storage in the systems, do not 
bode well for conditions in the spring and summer in these two basins 
unless significant late spring precipitation occurs. While current 
conditions and projections are positive for the Upper Colorado River 
basin, a warming trend during April has the potential to erode the 
above average conditions that we are currently seeing.
    The low precipitation levels that currently exist in the Rio Grande 
and Pecos river basins are of significant concern to Reclamation with 
respect to its operations in New Mexico. In the Middle Rio Grande, 
although there is likely to be sufficient water to meet endangered 
species needs and still maintain water operations in 2011, reservoir 
levels will fall and the situation lends urgency to our efforts to put 
a new long-term biological opinion in place upon expiration of the 
existing opinion at the end of 2012.
    In the Pecos river basin, Reclamation is working closely with its 
water user partners and the New Mexico Interstate Stream Commission to 
acquire additional water through lease and forbearance agreements that 
will provide sufficient flows for meeting the 2006 biological opinion 
flow targets, assist in meeting Pecos River Compact obligations, and 
provide efficient irrigation deliveries. The U.S. Fish Wildlife Service 
and Reclamation are monitoring conditions and adjusting operational 
plans for anticipated reduced in-river flow conditions on the Pecos so 
that the available supply is optimized to protect the Pecos Bluntnose 
Shiner while meeting downstream needs.
    Finally, with respect to the Rio Grande Project, forecasted inflow 
to Elephant Butte Reservoir is 36 percent of average and the reservoir 
is expected to drop 24 feet this summer impacting the recreational 
economy of the area. Water users, the states of New Mexico and Texas, 
and Reclamation are looking at alternatives to conserve storage while 
meeting irrigation demands for two irrigation districts and treaty 
obligations for water deliveries to lands in the Republic of Mexico. As 
part of its primary mission in the Middle Rio Grande, Reclamation 
continues to improve the Rio Grande channel conditions for the 
efficient transport of water and sediment to Elephant Butte in 
collaboration with the New Mexico Interstate Stream Commission, and is 
working closely with irrigation districts to increase their 
conservation efforts.
    To the west and north of New Mexico on the Colorado River, the 
upper basin of the Colorado has received healthy, above average 
precipitation so far this year (121 percent of average as of 4/21). The 
April to July inflow forecast to Glen Canyon Dam / Lake Powell, which 
represents the bulk of the inflow, increased by 6 percent since March 1 
to 122 percent of average. The above average inflow forecast will 
result in increased releases from Lake Powell under the equalization 
rules. These additional releases from Lake Powell will increase Lake 
Mead's content to approximately 46 percent of capacity by the end of 
the water year, more closely balancing the contents between Lake Powell 
and Lake Mead. While we are encouraged by the water availability this 
year, we would caution that it is too early to say that we are out of 
the long-term drought we have been facing since 2000 in the southwest.
    As of April 21, 2011, the storage in Lake Mead was 11.1 million 
acre-feet (43 percent of capacity) and its surface water elevation was 
1,096 feet above sea level. Total overall reservoir storage in the 
Colorado River Basin was 31.4 million acre-feet (53 percent of 
capacity).
    Due to winter storms in the Lower Basin in late 2010, tributary 
inflows were well above average in December. Inflows resulting from 
these storms increased Lake Mead's elevation by nearly 2 feet during a 
7-day period in December 2010. Also due to the winter storms in late 
December 2010, and additional storms in February 2011, demands in the 
Lower Basin were less than projected during the months of January and 
February 2011. The month of February brought cooler than normal 
temperatures and precipitation varied with below normal precipitation 
in some areas and above normal precipitation in other parts of the 
Lower Basin. During March, temperatures were warmer than normal and 
precipitation was well below normal throughout the basin. The Climate 
Prediction Center outlook (dated April 21, 2011) indicates that over 
the next three months that more likely than not it will be warmer than 
normal with equal chances for above or below normal precipitation in 
the Lower Basin.

      WATERSMART WATER AVAILABILITY AND USE ASSESSMENT INITIATIVE

    The Department of the Interior's High Priority Performance Goal set 
a target for water conservation through the WaterSMART Program. For 
Fiscal Year 2012, Reclamation is seeking to achieve 490,000 acre-feet 
of water savings. In Fiscal Year 2010, Reclamation achieved a savings 
of 150,000 acre-feet of water. The Fiscal Year 2011 assessment is still 
underway.
    As previously mentioned, the USGS is an important partner of 
Reclamation on the WaterSMART initiative. I would like to end this 
statement with a discussion of the USGS's WaterSMART Water Availability 
and use Assessment Initiative. Many factors affect the amount of water 
that is available; precipitation patterns, streamflows, groundwater 
availability, and land uses all affect water availability. The USGS's 
WaterSMART Water Availability and Use Assessment Initiative will 
account for the changing amount, quality, and use of water resources 
across the Nation. It provides a standard way for the Nation to 
understand water availability using measurements or estimates of the 
different components of the water cycle, including precipitation, 
surface water, and groundwater. The President's 2012 budget includes 
$10.9 million USGS to carry out this initiative. The key components of 
this initiative include:

  <bullet> A nationwide system to deliver information about water 
        availability factors that every manager needs when dealing with 
        availability questions--precipitation and evapotranspiration, 
        surface-water runoff and baseflows, recharge to groundwater and 
        changing storage in aquifers.
  <bullet> Increased knowledge of water use science--withdrawals, 
        demands, consumption, and return flows.
  <bullet> An investment in the science of ecological flows.
  <bullet> A new grant program for state water resource agencies to 
        assist them with critical work on their water use databases.
  <bullet> A series of ``focus area'' studies that will include a 
        comprehensive three-year technical assessment of water 
        availability with the best available tools.

    The ultimate objective of USGS WaterSMART efforts is to provide the 
ability to track water use from its point of withdrawal, through how 
the water is used and consumed, and ultimately how it is returned to 
the environment. The Administration fully recognizes the important role 
of states in producing water use information, and we realize the heavy 
burden that states currently bear financially. For that reason, USGS 
investment in water use science will include a program of grants to 
state water resource agencies to assist them with critical work on 
their water use databases.
    Finally, throughout the United States there are areas where 
competition for water resources has reached a level of national 
attention and concern. Sometimes the competing interests are multiple 
human needs--needs for potable water, for irrigation, for energy, for 
industrial processes or for other uses. In other circumstances, the 
competition is between human and aquatic ecosystems needs. Through 
WaterSMART, USGS proposes a series of studies, focused on selected 
watersheds, where there is a desire on the part of watershed 
stakeholders to conduct a comprehensive technical assessment of water 
availability with the best available tools. These studies will provide 
critical information to land and water resource managers through a 
comprehensive technical analysis of the factors affecting the 
availability of water. The first three geographically focused studies 
of water availability and use will be in the Colorado River (CO, UT, 
WY, NV, NM, AZ, CA), Delaware River (NY, PA, NJ, DE), and Apalachicola, 
Chattahoochee, and Flint River Basins (AL, FL, GA). USGS will work with 
watershed stakeholders and the various agencies involved in these 
geographic focus areas to scope and conduct these studies. During the 
early months of 2011, USGS began seeking stakeholder input to develop 
the scope of the Colorado River geographic focus area study.
    The 2012 budget provides $10.9 million for USGS activities in the 
WaterSmart initiative, $9.0 million above the 2010 Enacted/2011 CR 
level, to implement the WaterSmart Availability and Use Assessment. 
USGS will conduct comprehensive water supply and demand inventories to 
provide the baseline information needed by public and private water 
managers to work toward sustainable water supplies. This effort will 
include estimating freshwater resources, how those supplies are 
distributed, and how they are changing over time; evaluating factors 
affecting water availability including energy development, changes in 
agricultural practices, increasing population, and competing priorities 
for limited water resources; and assessing water use and distribution 
for human, environmental, and wildlife needs.

                               CONCLUSION

    Droughts and dry weather are nothing new in the Southwest. And as 
you know, the water infrastructure constructed by Reclamation and our 
partners in the West was built to mitigate for that reality. This year, 
we will work with the hydrology in New Mexico and on the Rio Grande and 
Colorado River together with our partners to maximize water reliability 
on the rivers, and meet our obligations to the maximum extent 
practicable.
    In the longer term, the Department is working every day to equip 
our agencies and other resource managers with the data they need to 
answer the questions they face about water supply and use and to 
continue delivering water and power in the face of a changed climate.
    While the activities described here today are wide-ranging, they 
are by no means inclusive of every avenue we're pursuing. New ideas are 
at the heart of innovation, and we value our partnership with Congress 
to bring the best thinking to the challenge of climate change. In ways 
both large and subtle, this challenge will impact nearly every facet of 
Reclamation's operations, so if new thinking on how to anticipate and 
adapt to climate change comes to our attention, we will pursue those as 
well.
    Chairman Bingaman, thank you for the opportunity to discuss these 
important topics. I would be pleased to answer any questions the 
Committee may have.

    The Chairman. Thank you again. Thank you for your testimony 
here today. Dr. Overpeck, go right ahead.

 STATEMENT OF JONATHAN OVERPECK, CO-DIRECTOR, INSTITUTE OF THE 
ENVIRONMENT, PROFESSOR OF GEOSCIENCES, PROFESSOR OF ATMOSPHERIC 
              SCIENCES, THE UNIVERSITY OF ARIZONA

    Mr. Overpeck. Thank you, Mr. Chairman, for the opportunity 
to speak with you today on the topic of climate variability and 
climate change as they relate to water supply in New Mexico and 
the broader Southwest United States.
    My name for the record is Jonathan Overpeck. It's a 
pleasure to be testifying in a hearing in my parents' hometown 
of Santa Fe.
    In addition to being codirector of the Institute of the 
Environment at the University of Arizona, I'm also professor of 
geosciences and professor of atmospheric sciences. I have 
published over 140 papers on climate environmental sciences and 
have played a prominent scientific role in the 
Intergovernmental Panel on Climate Change as well as various 
U.S. and national science programs.
    I've been awarded numerous U.S. Government and professional 
awards for my climate-related work. Most important at this 
hearing perhaps, I serve as the principal investigator for the 
Climate Assessment of the Southwest Program which is an 
interdisciplinary science program focused on climate 
variability and change with the goal of helping promote 
improved decisionmaking.
    In my written testimony, I discuss the current drought in 
some detail, the drought that's affecting New Mexico, Arizona, 
Texas, Oklahoma, and the adjoining region. But Dr. DuBois and 
others testifying before me have done a good job on this topic 
already.
    So for this reason I will start by trying to put the 
current drought in a much longer 2,000 year paleoclimatic 
perspective that makes it clear that the current drought, 
although serious, is modest compared to the magnitude of 
drought that has happened in the past and thus could happen in 
the future, even in the absence of climate change.
    I will start with a focus on the Colorado River and then 
shift to new scientific results that have serious implications 
for both the Rio Grande and the Colorado Rivers.
    The state-of-the-art published tree-ring based stream flow 
reconstruction for the Colorado River at Lee's Ferry just below 
Lake Powell indicates that several megadroughts, those are 
droughts that last decades, have occurred in the Southwest, 
with the worst in the 12th century A.D. lasting over 30 years.
    Most of these natural droughts were apparently driven by 
low precipitation during the winter and spring, much like the 
drought currently affecting New Mexico. Most were also 
apparently associated at least in part with cool, La Nina-like 
conditions in the Equatorial Pacific, again quite similar to 
the current drought in New Mexico. It's important to remember 
La Nina through this testimony.
    The difference between the current drought and the earlier 
droughts is that the earlier ones were much longer and more 
severe; that is, a good deal drier than the current drought.
    Because a megadrought like that of medieval times lasting 
not years but decades could occur on top of the reduced 
Colorado and Rio Grande flows projected in the just released 
Bureau of Reclamation report, the issue of future drought is a 
serious concern. Droughts on top of climate change will likely 
be a double-whammy, much worse than drought alone and much 
worse than just climate change alone.
    However, as serious as the just discussed megadrought 
sounds, one lasting 30 years, new scientific research not yet 
published provides evidence that the megadroughts currently 
believed by scientists and water managers alike to be the worst 
case possible may not be as bad as it could get.
    There is now evidence that even longer and more severe 
megadroughts apparently occurred in the headwaters of both the 
Colorado and Rio Grande Rivers. More detail are in my written 
testimony.
    But we now have reason to believe that a drought as long as 
49 years interrupted by only one wet year happened in recent 
history; and thus, this could happen in the future.
    Moreover, we now have reason to believe that the worst-case 
medieval megadrought mentioned in the new Bureau of Reclamation 
report; that is, 85 percent of normal Colorado flow for 25 
years--University of Arizona work by the way--may have in 
reality been substantially more severe; that is, substantially 
drier than we believed before.
    Further research is needed to confirm these new results and 
integrate them into water planning efforts being carried out by 
the Bureau of Reclamation and others in the Southwest.
    Turning to climate change, I would like to start by 
commending the fine work that is contained in the just released 
Bureau of Reclamation report. I believe that the scientific 
evidence strongly supports the Bureau of Reclamation finding 
that the Southwest and particularly the Colorado/Rio Grande 
River Basins will become substantially hotter and drier if we 
choose to let human-caused climate change continue into the 
future.
    What gives climate scientists confidence in these 
projections is that the change is already happening. It is 
happening as the climate models suggest it should. The 
Southwest is already warming rapidly.
    The spring snow pack and the Colorado stream flow are 
already declining. A large majority of climate models agree 
that we are likely to see less late winter precipitation just 
as occurring--as it's occurring in the real world.
    All of the published peer-reviewed stream flow projections 
for the Colorado, and that's the river that's received the most 
scientific attention, indicate that future stream flow will be 
on average less in volume, with a chief uncertainty being how 
fast the stream flow will decline into the future.
    Most recent work suggests a 10 to 20 percent decline by 
mid-century with a finite chance that all reservoir storage on 
the Colorado could go dry absent effective shortage management, 
which we know will happen. There will be effective management.
    My foregoing discussion of possible future megadrought will 
only make this possibility more likely. The dry will not 
magically stop at mid-century if we choose to let human-caused 
climate change continue.
    Now, I would like to highlight some factors that should be 
the focus of greater research because they could have a big 
impact on our future water supply in the Southwest.
    First the future behavior of the El Nino Southern 
Oscillation or ENSO system as we like to call it is highly 
uncertain. If it turns out that more frequent or severe La 
Ninas are likely; that is, La Ninas like this year happening 
more frequently and in a more severe manner, it could increase 
future drought risk substantially. Research is needed to 
unravel the mystery of El Nino and La Nina under changing 
climate.
    Second, new research indicates that state-of-the-art 
climate models appear to underestimate the true risk of future 
megadrought. Correcting for this bias suggests that the odds of 
a megadrought lasting 25 or more years in this century are as 
high as 1 in 2 for parts of the Southwest. This new result is 
shocking and needs to be fully researched.
    Third, it is unclear whether future changes in the summer 
monsoon will help offset water losses that could occur in the 
winter and spring or whether summer drought could make the 
future situation more challenging. Work is underway to answer 
these questions. But definitive results will emerge slowly 
unless more dedicated funding for monsoon research becomes 
available.
    Fourth, the growing incidence of climate-related tree die-
off could further limit water supply. Over 7 percent of 
Southwestern forests and woodland area has recently seen die-
off of trees due to drought and insects. An additional 3 
percent of the forests and woodland area has been affected by 
wildfire.
    Recent research, again not yet published but almost 
published, needs to be tested. But it suggests that it would be 
prudent for water management to assume that the widespread and 
growing tree die-off in the Southwest could act to further 
reduce, not increase, flow in some of our rivers.
    Fifth, poor land use and desertification in the Southwest 
could further reduce stream flow in snow-dominated systems like 
the Colorado/Rio Grande by allowing greater amounts of dust to 
blow out of our lower elevations and into our headwaters, where 
the dust is known to speed the melting of snow and reduce the 
flow in our rivers.
    Research on how sensitive our biggest watersheds, for 
example, the Colorado and Rio Grande, are to desert dust is 
needed; just as we need to learn how to reduce the amount of 
dust that is blowing up into our headwaters.
    To conclude Mr. Chairman, I would like to suggest that it 
is both safe and wise for people and decisionmakers in the 
Southwest to assume that the future will be hotter, drier, and 
more drought prone.
    Scientists and decisionmakers need to work together to 
study the details of what lies ahead and to develop strategies 
to make effective decisions under the uncertainties that will 
always exist while at the same time reducing these 
uncertainties.
    Scientists and water managers alike should be careful to 
avoid the belief that the currently estimated worst-case 
scenario is really the worst that it could get.
    But finally, it is critical to realize that we can 
certainly make the worst case for the Southwest less worse by 
eliminating the human causes of the climate change that is 
already affecting the Southwest.
    Thank you, Mr. Chairman and colleagues, for giving me the 
opportunity to discuss climate and water issues with you. I'd 
be happy to answer any questions that you might have.
    [The prepared statement of Mr. Overpeck follows:]

Prepared Statement of Jonathan Overpeck, Co-Director, Institute of the 
    Environment, Professor of Geosciences, Professor of Atmospheric 
                  Sciences, The University of Arizona

    Chairman Bingaman and other members of the committee, thank you for 
the opportunity to speak with you today on climate variability and 
climate change as they relate to water supply in New Mexico and the 
broader Southwest United States.
    My name is Jonathan Overpeck. I am the founding co-director of the 
Institute of the Environment at The University of Arizona, where I am 
also a professor of geosciences and a professor of atmospheric 
sciences. I have published more than 140 papers on climate and the 
environmental sciences, and recently served as a coordinating lead 
author for the U.N. Intergovernmental Panel on Climate Change (IPCC) 
Fourth Assessment (2007). I have been awarded the US Department of 
Commerce Bronze and Gold medals, the Walter Orr Roberts award of the 
American Meteorological Society and a Guggenheim Fellowship for my 
interdisciplinary research. I also serve as principal investigator of 
the Climate Assessment for the Southwest (CLIMAS), an interdisciplinary 
Regional Integrated Science and Assessment (RISA) project funded by 
NOAA. In this capacity, and others, I work not only on generating 
climate system knowledge, but also on supporting use of this knowledge 
by decision-makers in society. I am a well-known expert on climate 
variability and change, as well as drought.

                         OVERVIEW OF TESTIMONY

    In this testimony I first discuss the current severe drought that 
is affecting New Mexico, Arizona, Texas, Oklahoma and adjoining 
regions. I then put this current drought in a 2000-year perspective 
that makes it clear that the current drought, although serious, is 
modest compared to the magnitude of drought that could happen in the 
future even in the absence of climate change. I then focus on the 
dominantly human-caused climate change that has already started in the 
Southwest, and how continued climate change could make the risk and 
impacts of drought and decades-long megadrought much greater for the 
region that includes New Mexico. In my discussions of past natural 
drought and likely future human-caused climate change, I cover the 
well-established science, as well as provide updates on important new 
science that is just emerging. The bottom-line is that New Mexico and 
the rest of the broad Southwest--extending from California through east 
Texas and Oklahoma--are at an increasing risk of unprecedented warming, 
drying and drought, and should prepare accordingly to ensure secure 
water supplies through this century.

                          THE CURRENT DROUGHT

    The current drought is part of a broader western--and 
southwestern--drought that has persisted on and off across the region 
since the late 1990's. As such, the current drought is an extension of 
the worst drought the region has seen in the 100+ years of rain gauge 
record. At the present time, the drought is most severe eastward from 
southern Arizona, across New Mexico, Texas, Oklahoma, and into Arkansas 
and Louisiana (Figure 1).* All of New Mexico is in drought. For New 
Mexico as a whole, the October to March period has been the 6th driest 
on record (116 years; according to PRISM data) and two climate 
divisions in southern New Mexico have endured their 2nd and 3rd driest 
winters on record (Z. Guido, CLIMAS, pers. comm.). Since the start of 
the ``water year'' (October 1, 2010) all climate divisions in New 
Mexico measured precipitation less than 68% of the 1971-2000 average, 
and drought has worsened to the present (Figure 2). Headwater regions 
for New Mexico's large rivers are also experiencing drought, a fact 
that has led to spring-summer streamflow forecasts across the state 
being well below normal as of April 1, 2011 (Figure 3).
---------------------------------------------------------------------------
    * Figures 1-7 have been retained in committee files.
---------------------------------------------------------------------------
       THE NATURAL RANGE OF DROUGHT VARIABILITY IN THE SOUTHWEST

    Although the current drought is quite notable, particularly as part 
of a drought that has plagued the Southwest off and on over the last 
decade, it is modest compared to some of the longer and more severe 
droughts of the last 1200 years (Woodhouse et al., 2010). For example, 
the state-the-art published tree-ring based streamflow reconstruction 
for the Colorado River at Lees Ferry (Meko et al., 2007) indicates that 
multiple ``megadroughts'' (droughts lasting multiple decades) have 
occurred in the Southwest, with the worst--in the 12th century--lasting 
over 30 years. Most of these natural droughts were apparently driven by 
low precipitation during the winter and spring (Woodhouse et al., 
2010), much like the drought currently affecting New Mexico (Figure 2). 
Most were also apparently associated, at least in part, with cool La 
Nina-like conditions in the equatorial Pacific--again, quite similar to 
the current drought in New Mexico (Conroy et al., 2009; Seager and 
Vecchi, 2010). The difference between the current drought and the much 
longer and more severe droughts of the last 1200 years is that the 
latter droughts were likely associated with monger longer periods of 
below average sea surface temperatures in the equatorial Pacific.
    New scientific research, not yet published, provides evidence that 
the megadroughts currently believed by scientists and water managers 
alike to be the worst-case possible may not be as bad as it could get. 
Longer and more severe megadroughts occurred in both the Upper Colorado 
River Basin and the headwaters of the Rio Grande:

  <bullet> New paleoclimatic work at the University of Arizona 
        indicates that even the worst southwestern droughts of the last 
        1200 years (i.e., the 12th century megadrought) was eclipsed by 
        a drought in the 2nd century A.D. that lasted 49 years in the 
        headwaters of the Rio Grande, and was interrupted by only one 
        year with above normal precipitation (C. Routson, Woodhouse and 
        Overpeck, in preparation)
  <bullet> Other new work at the University of Arizona also indicates 
        that the severity of ``worst-case'' medieval period 
        megadroughts of the last 1200 years (Meko et al., 2007) may 
        have been underestimated by 20% or more. (Ault, Pederson, Cole, 
        Overpeck, and Meko, in prep.; also G. Pederson et al. in prep.)

    WIDELY RECOGNIZED LIKELY CLIMATE CHANGE IMPACTS ON THE SOUTHWEST

    Climate change is already clearly affecting the Southwest, 
particularly in terms of increasing temperature (Figure 4), decreasing 
precipitation falling as snow (Figure 5), decreasing spring snowpack, 
and decreasing Colorado River flow (Karl et al., 2009; Overpeck and 
Udall, 2010). These changes were anticipated by climate scientists, and 
simulated by many climate models (e.g., note current temperature and 
precipitation projections, Figures 6 and 7). The mechanisms of change 
observed in nature are similar to those driving the change in the 
climate model simulations. All of these factors give the climate 
science community greater confidence in asserting that the current 
warming and drying trends will continue into the future unless 
greenhouse gas emissions are reduced significantly, and this spells 
trouble for water supplies throughout the Southwest, particularly where 
the supplies are currently snow-fed (e.g., the Colorado and Rio Grande 
Rivers).
    Indeed, all of the published streamflow projections for the 
Colorado (the river that has received the most scientific attention) 
indicate future streamflow will be on average less in volume, with the 
chief uncertainty being how fast. Most recent work suggest a 10 to 20% 
decline by mid-century, with a finite chance that all reservoir storage 
on the Colorado could go dry absent effective shortage management 
(Rajagopalan et al., 2009; Overpeck and Udall, 2010).

   ADDITIONAL ISSUES THAT COULD PLACE SOUTHWEST SURFACE WATER SUPPLY 
                              MORE AT RISK

1) Future behavior of the El Nino-Southern Oscillation (ENSO) system 
        could increase future drought risk substantially
  <bullet>  The current drought, as well as the worst megadroughts of 
        the last 1200 years, were all apparently associated with cool 
        ``La Nina like'' conditions in the equatorial Pacific, and this 
        will likely be the case in the future. However, state-of-the-
        art climate modeling is still not able to determine if there 
        will be more or less La Nina-like conditions in the future. If 
        there are, then the worst-case droughts of the future might be 
        substantially worse than currently simulated (Seager and 
        Vecchi, 2009).
2) More generally, current state-of-the-art climate models appear to be 
        underestimating the true risk of future megadrought
  <bullet> New research results at the University of Arizona indicate 
        that state-of-the-art climate models underestimate the full 
        range of drought variability exhibited in a variety of 
        paleoclimatic records. Correcting for this bias suggests that 
        the odds that a megadrought like that of the 12th-century could 
        occur in the next 90 years are as high as one in two for parts 
        of the Southwest (Ault, Pederson, Cole, Overpeck, and Meko, in 
        prep.).
3) It is unclear whether future changes in the summer monsoon will help 
        offset water losses in the winter and spring, or whether summer 
        drought could make the future situation more challenging

  <bullet> Projections of future monsoon rainfall are still highly 
        uncertain because global models lack the realistic regional or 
        ``mesoscale'' processes needed to simulate the monsoon 
        correctly. However, work at the University of Arizona and 
        elsewhere is employing both global and regional climate models 
        to solve this problem. It also remains uncertain if the large-
        scale influences on summer precipitation in the Southwest are 
        captured realistically enough in global models for regional 
        modeling results to be robust.
  <bullet> As with cool-season precipitation (snow and rain), the 20th 
        century record of summer monsoon rainfall variability 
        underestimates the full range of variability that can occur 
        naturally. For example, a new tree-ring reconstruction of 
        monsoon variability over the last 350 years indicates that the 
        20th century lacked monsoon droughts of the type that occurred 
        in the 19th century. Moreover, comparisons of the new monsoon 
        reconstruction with cool-season drought reconstructions 
        indicate that winter-spring droughts are never compensated 
        fully by wet monsoons, and that cool-season droughts are 
        frequently accompanied by summer drought (work by University of 
        Arizona climate scientists D. Griffin, C. Woodhouse and 
        colleagues).
4) Growing incidence of climate-related tree die-off could further 
        limit future water supply

  <bullet> Forests and woodlands in the Southwest appear highly 
        sensitive to drought and warmth, with over 7% of southwestern 
        forest and woodland area in the region recently (since 1997) 
        impacted by die-off of trees due to drought and insects since 
        1997, and an additional nearly 3% of forest and woodland area 
        also affected by wildfires (Williams et al., 2010).
  <bullet> Growing drought and infestation-triggered tree die-off in 
        the Southwest will likely affect water supply in different 
        ways, and the latest research (Adams et al., 2011) suggests it 
        would be prudent for water managers to assume the widespread 
        (and growing) tree die-off in the Southwest could act to 
        further limit available water in the future.
5) Growing land-use and desertification in the Southwest could further 
        reduce streamflow in snow-dominated river systems (e.g., the 
        Colorado and Rio Grande rivers)

  <bullet> Recently published research (Painter et al., 2010) indicates 
        that human land-use and desertification in the Southwest (and 
        particularly in the Four Corners region) is already decreasing 
        the duration of snow cover in the Colorado headwaters by 
        several weeks, and that this in turn is likely contributing to 
        reduced flows in at least the Colorado River. Better land-
        management could therefore yield greater water supply.
  bottom-line advice to water managers in new mexico and the southwest
          1) There is broad agreement in the climate science research 
        community that the Southwest, including New Mexico, will very 
        likely continue to warm. There is also a strong consensus that 
        the same region will become drier and increasingly snow-free 
        with time, particularly in the winter and spring. Climate 
        science also suggests that the warmer atmosphere will lead to 
        more frequent and more severe (drier) droughts in the future. 
        All of the above changes have already started, in large part 
        driven by human-caused climate change.
          2) However, even in the absence of significant human-caused 
        climate change, the Southwest is prone to drought and 
        megadrought much more severe than droughts witnessed in the 
        last 100 years. The 2000-year record of drought in the region 
        makes it clear that droughts lasting decades are likely 
        independent of human-caused climate change. For this reason, 
        the ``no-regrets'' strategy is to plan and prepare for droughts 
        no matter the cause--human or natural--and to do so under the 
        assumption that droughts will very likely be hotter and thus 
        more severe in the future than in the past 2000 years.
          3) Scientists and water managers alike, however, should be 
        careful not to assume the currently estimated ``worst case'' 
        drought scenario will remain so for long. As climate science 
        has advanced in the Southwest, there have been a steady 
        progression of new results that imply that today's ``worst-
        case'' drought scenario is tomorrow's second-worst case 
        scenario. Water managers should pay particular attention to the 
        emerging science that has been highlighted in the testimony 
        above.
          4) Finally, it is critical to realize that the people of New 
        Mexico, the Southwest, and our nation can certainly make the 
        worst case for the Southwest less worse by eliminating the 
        greenhouse gas emissions that are the primary cause of the 
        climate change that is already affecting the Southwest.

    Thank you Chairman Bingaman and colleagues for giving me the 
opportunity to discuss climate and water issues with you.

                            REFERENCES CITED

Adams, H. D., C.H. Luce, D.D. Breshears, C.D. Allen, M. Weiler, V.C. 
    Hale, A.M.S. Smith, T.E. Huxman. (2011). Ecohydrological 
    consequences of drought-and infestation-triggered tree die-off: 
    insights and hypotheses. Ecohydrology (in press).
Conroy, J. L., J.T. Overpeck, J.E. Cole and M. Steinitz-Kannan. (2009). 
    Variable oceanic teleconnections to Western North American drought 
    over the last 1200 years. Geophysical Research Letters 36: L17703 
    10.1029/2009gl039558
Karl, T. R., J. M. Melillo, and T. C. Peterson, editors. 2009. Global 
    climate Change Impacts in the United States. Cambridge University 
    Press, New York.
Meko, D. M., C. A. Woodhouse, C. A. Baisan, T. Knight, J. J. Lukas, M. 
    K. Hughes, and M. W. Salzer. (2007). Medieval drought in the upper 
    Colorado River Basin. Geophysical Research Letters 34. doi: 
    10.1029/2007GL029988.
Overpeck, J. and B. Udall. (2010). Dry Times Ahead. Science 328:1642-
    1643.
Painter, T. H., J. S. Deems, J. Belnap, A. F. Hamlet, C. C. Landry, and 
    B. Udall. (2010). Response of Colorado River runoff to dust 
    radiative forcing in snow. Proc. of the Natiional Academy of 
    Sciences 107:17125-17130.
Pierce, D. W., T. P. Barnett, H. G. Hidalgo, T. Das, C. Bonfils, B. D. 
    Santer, G. Bala, M. D. Dettinger, D. R. Cayan, A. Mirin, A. W. 
    Wood, and T. Nozawa. (2008). Attribution of Declining Western US 
    Snowpack to Human Effects. Journal of Climate 21:6425-6444.
Rajagopalan, B., K. Nowak, J. Prairie, M. Hoerling, B. Harding, J. 
    Barsugli, A. Ray, and B. Udall. (2009). Water supply risk on the 
    Colorado River: Can management mitigate? Water Resources Research 
    45, W08201.
Seager, R. and G. A. Vecchi. (2010). Greenhouse warming and the 21st 
    century hydroclimate of southwestern North America. Proc. of the 
    National Academy of Sciences 107:21277-21282.
Williams, A. P., C. D. Allen, C. I. Millar, T. W. Swetnam, J. 
    Michaelsen, C. J. Still, and S. W. Leavitt. (2010). Forest 
    responses to increasing aridity and warmth in the southwestern 
    United States. Proc. of the National Academy of Sciences 107:21289-
    21294.
Woodhouse, C. A., D. M. Meko, G. M. MacDonald, D. W. Stahle, and E. R. 
    Cook. (2010). A 1,200-year perspective of 21st century drought in 
    southwestern North America. Proc. of the National Academy of 
    Sciences 107:21283-21288.

    The Chairman. Thank you very much, appreciate that 
testimony. Dr. Hurd, why don't you go right ahead and give us 
your views.

 STATEMENT OF BRIAN H. HURD, ASSOCIATE PROFESSOR, AGRICULTURAL 
     ECONOMICS, NEW MEXICO STATE UNIVERSITY, LAS CRUCES, NM

    Mr. Hurd. All right. Mr. Chairman and members of the panel 
and audience members, thank you for the invitation to appear 
before you today and to provide testimony regarding my views on 
adaption to climate variability and change.
    Specifically I would like to first summarize how investing 
in adaptive capacity can reduce the possible magnitude and 
extent of adverse consequences. Then provide some examples that 
characterize some of the strategies, opportunities, and options 
available to governments and communities.
    In appearing before you today, I'm representing my own 
individual views and not those of any current or past employer, 
organization, or association. My views have been informed by 
nearly 2 decades of research on climate change economics, 
impact, and adaptation, with a primary focus on agricultural 
and water resources.
    For example, during my current faculty appointment for the 
past 10 years with New Mexico State University, I've had the 
opportunity to study and research water, agricultural, and 
economic systems in New Mexico and across the Southwest 
including both the Rio Grande and Colorado River watersheds.
    We are well aware of many instances and anecdotes that 
raise our concern about the nature and power of climate and of 
extreme weather events. Even in the most recent past, we are 
reminded the power of intense storms including hurricanes, the 
tornados that are devastating communities around the country 
these days right now, snow and ice storms; of the human and 
economic losses from extended periods of both high and low 
temperatures, wildfires, and persistent droughts and floods.
    The chronicle of weather and climate is ever present in our 
consciousness such that we constantly observe, track, sometimes 
name, and often recollect those phenomena. ``How is the 
weather'' we ask. Answers and stories abound. ``Fine, gloomy, 
worst in decades, not since records have been kept.''
    Permit me just a moment to give a quick anecdote from my 
experience this past winter. Late January and early February 
saw temperatures lower and for longer periods than ever seen 
before in Southern New Mexico, far West Texas, and Chihuahua, 
Mexico.
    In my 10 years, I had never seen single digits let alone 
sub-zero temperatures in the deserts near Las Cruces, New 
Mexico. The mercury hit a low of minus 6 degrees Fahrenheit, 
and never rose above freezing for 4 consecutive days.
    Perhaps most surprising was the incapacity of the 
electrical system to cope with the event. For a week residents 
dealt with rolling blackouts, closed schools, universities, and 
businesses, broken pipes and pumps, and flooded rooms. Crop 
losses are widespread.
    Homeowners and businesses across the region--some are now 
just beginning to confront the damages and to replace lots of 
damaged landscape plants and trees. Not to mention the recent 
heat wave and record high temperatures in March and April that 
have set West Texas ablaze.
    Some might begin to ask questions about this region's 
capacity to adapt and the capability of utilities, residents, 
and businesses to cope with such climatic extremes. It is 
difficult to know and to assign blame to so-called acts of God. 
Of course, there are limits to what even the best-prepared and 
well-adapted community can hope to withstand.
    But that really is not the point. Rather the point I'd like 
to make should be focused on future preparedness and what might 
be done to lessen the losses and damages in the future.
    Climate extremes I think we can generally agree present 
challenges to vulnerable communities, whether or not these 
extreme events are attributable to normal variability or to 
climate changes induced by rising greenhouse gas 
concentrations. It doesn't matter.
    How well communities anticipate and assess the likelihood 
of climate extremes and how well they choose to prepare for 
them depends to a large extent on 4 key ingredients: First 
quality and accessibility of climate change scenarios and 
information including frameworks to use and transform them into 
relevant forms for decisionmakers, the local decisionmakers. 
Following the work that's coming out of the SECURE Waters 
report Mr. Connor had presented is a great step in that 
direction.
    Understanding--second, understanding an assessment of 
vulnerable environmental and economic systems and their 
impacts, including the sensitivity to climate, the degree and 
routes of exposure, and the capacity that these systems have to 
adapt.
    Third, the need--the capacity to identify trends and render 
plausible scenarios not only of changes in climate and climate 
extremes, but the demographic and economic conditions, relevant 
institutions and policies, and environmental stresses and 
conditions that are expected to emerge over the coming decades.
    Finally the fourth ingredient that's very critical is the 
state of institutional preparedness, our leadership and support 
for integrating climate science into relevant and appropriate 
programs, procedures, and policies.
    Time does not permit addressing each ingredient. But I will 
draw attention to the second component; namely, that of 
assessing vulnerability and quickly illustrate key issues 
looking at water and adaptation.
    Essentially one of the goals of most water supply systems 
and institutions especially in the West thanks in large part to 
the Bureau of Reclamation is to help communities cope with a 
moderate range of climate and water supply variability.
    With few exceptions most water system and utility managers 
agree that U.S. communities, industries, and water users are 
generally well-prepared and well-adapted to manage successfully 
within normal fluctuations, often including occasional extremes 
such as events that typically occur once every decade or 2.
    However, problems begin to arise when relatively rare or 
unexpected events occur and reoccur with unusual frequency. 
Witness, for example, the flooding along the Red River of the 
North between Minnesota and North Dakota, where historic floods 
once thought to be rarer than once in 100 are occurring 
surprisingly in rapid succession.
    If as the accumulated science indicates climate changes can 
result from rising greenhouse gas concentrations and emissions 
and if these changes contribute to greater climate uncertainty 
and extreme events such as those that Dr. Overpeck has just 
described, then it might be reasonable and prudent to expect 
more severe and/or frequent extreme events.
    Such events can quickly become a significant economic and 
environmental concern, pushing beyond the prevailing capacities 
of water users to cope and indicating the need for additional 
adaptive capacity. Adaptation as such can be viewed as a 
complement to climate change mitigation activities within a 
comprehensive and coordinated climate strategy.
    It is during the process of assessing vulnerability that 
the question of adaptation begins to arise. For example, with 
their primary focus on the physical systems, the earliest 
climate change impact assessments often neglected expected 
natural responses from affected people such as farmers once 
they had realized that a change occurred.
    After all, a great evolutionary strength of humans is their 
capacity to observe and recognize changing conditions and to 
react accordingly, although it might take some time to realize, 
confirm, and learn that the observed changes are likely to 
persist.
    This capacity to recognize and react to changing conditions 
confers economic advantage and success. However, and this is 
key, even greater advantage and long run economic success 
follows from the ability to observe patterns and trends; and to 
combine these with knowledge and understanding of our economic 
and environmental systems in anticipation of likely outcomes 
and consequences.
    I describe in my written testimony a little bit more about 
the differences between reactive and anticipatory adaptation. 
But in the interest of time and to make my presentation right 
now brief, I'd like to finish with some specific adaptation 
strategies and opportunities that I feel we have before us. 
They fall into 4 broad categories.
    No. 1, I think we should work toward improving science and 
technical information including development, integration, 
education, and dissemination. A great start of that would be 
the work of the Bureau and the USGS in this regard.
    There is a need for continued development of climate, 
environmental, and resource management sciences and their 
integration. For example, there has been progress in 
development of assessment methods. But uncertainties which 
compound and cascade throughout the process result in often 
broad and otherwise not-well defined scenarios that are not 
very useful for local scale planning.
    By facilitating partnerships and strategic alliances 
between Federal and State agencies, the national laboratories, 
local governments, universities, and NGO's, cross-organization 
capacities can be better harnessed and focused.
    Second, look toward developing more appropriate risk 
management institutions and policies. Risk management 
institutions, policies, and insurance programs are often at 
odds, resulting in inappropriate development in high-risk 
areas; and then promoting rebuilding without appropriate regard 
to risks.
    It might be prudent to develop programs and policies with 
greater risk sharing and stakeholder awareness rather than 
blanket protection from climate-related risks.
    Third, increase the use of resource markets and incentive-
based policy designs. The goal is to create a context in which 
communities, organizations, and individuals can make smarter 
decisions and wiser choices. Institutions and policies that 
establish and use decentralized approaches help to provide 
appropriate economic signals to decisionmakers and generally 
improve compliance and voluntary solutions.
    For example, water-use efficiency could be promoted, 
resulting in more flexibility and responsiveness to climate 
changes; for example, the work that the State Engineer is doing 
on water rights adjudication, efforts to make those water 
rights better defined, right-holders could be compensated or 
could lease the value of saved water in a similar fashion as we 
have in electricity cogeneration and buy-back.
    Finally and my last example here, add flexibility and 
safety to infrastructure design and construction and 
incorporate climate factors in land-use planning and building 
codes. Especially with long-lived infrastructure, the added 
costs may provide good value in providing both additional 
services and reliability.
    Risk-appropriate zoning and building codes may also add to 
short-run costs but provide better long-run protection. An 
example of this is the LEED certification program for energy 
efficiency in building design.
    That's the end of my remarks. I thank you, Senator, for 
your interest and contribution to this important topic.
    [The prepared statement of Mr. Hurd follows:]

Prepared Statement of Brian H. Hurd, Associate Professor, Agricultural 
         Economics, New Mexico State University, Las Cruces, NM

                              INTRODUCTION

    Mr. Chairman and members of the Committee, thank you for the 
invitation to appear before you today and to provide testimony 
regarding my views on adaptation to climate variability and change. 
Specifically, I would like to first summarize how investing in adaptive 
capacity can reduce the possible magnitude and extent of adverse 
consequences, and then provide some examples that characterize some of 
the strategies, opportunities and options available to governments and 
communities. In appearing before you today, I am representing my own 
individual views, and not those of any current or past employer, 
organization, or association. My views have been informed by nearly two 
decades of research on climate change economics, impacts and 
adaptation, with a primary focus on agricultural and water resources. 
For example, during my current faculty appointment for the past ten 
years with New Mexico State University, I have had the opportunity to 
study and research water, agricultural, and economic systems in New 
Mexico, and across the Southwest including both the Rio Grande and 
Colorado River watersheds.

        KEY INGREDIENTS FOR SUCCESSFUL CLIMATE CHANGE ADAPTATION

    We are all well aware of many instances and anecdotes that raise 
our concern about the nature and power of climate and of extreme 
weather events. Even in the most recent past we are reminded of the 
power of intense storms including hurricanes, tornadoes, snow and ice 
storms, of the human and economic losses from extended periods of both 
high and low temperatures, wildfires and persistent droughts and 
floods. The chronicle of weather and climate is ever present in our 
consciousness such that we constantly observe, track, sometimes name 
and often recollect these phenomena. ``How is the weather?'' we ask. 
Answers and stories abound. ``Fine.'' ``Gloomy''. ``Worst in decades.'' 
``Not since records have been kept.'' Permit me to give a quick 
anecdote from my experience this past winter. Late January and early 
February saw temperatures lower and for longer periods than ever seen 
before in southern New Mexico, Far West Texas, and Chihuahua, Mexico. 
In my ten years I had never seen single digits let alone sub-zero 
temperatures in the deserts near Las Cruces, New Mexico. The mercury 
hit a low of ^6 degrees Fahrenheit, and never rose above freezing for 
four consecutive days.
    Perhaps most surprising was the incapacity of the electrical system 
to cope with the event. For a week residents dealt with rolling 
blackouts, closed schools, universities, and businesses, broken pipes 
and pumps, and flooded rooms. Crop losses are widespread and homeowners 
and businesses across the region are just now beginning to confront 
damages and to replace damaged landscape plants and trees. Not to 
mention the recent heat wave and record high temperatures in March and 
April that have set west Texas ablaze. Some might begin to ask 
questions about this region's capacity to adapt and the capability of 
utilities, residents and businesses to cope with such climatic 
extremes. It is difficult to know, and to assign blame, to so-called 
`acts of god.' And of course there are limits to what even the best-
prepared and well-adapted community can hope to withstand. But that 
really is not the point. Rather the point should be focused on future 
preparedness, and what might be done to lessen the losses and damages 
in the future.
    Climate extremes, I think we can generally agree, present 
challenges to vulnerable communities--whether or not these extreme 
events are attributable to `normal' variability or to climate changes 
induced by rising greenhouse gas concentrations. How well communities 
anticipate and assess the likelihood of climate extremes, and how well 
they choose to prepare for them depends to a large extent on four key 
ingredients:

  <bullet> Quality and accessibility of climate change scenarios and 
        information including frameworks to use and transform them into 
        relevant forms for decision makers.
  <bullet> Understanding and assessment of vulnerable environmental and 
        economic systems and impacts, including sensitivity to climate, 
        degree of exposure, and capacity to adapt.
  <bullet> Capacity to identify trends and and render plausible 
        scenarios not only of changes in climate and climate extremes, 
        but of demographic and economic conditions, relevant 
        institutions and policies, and environmental stresses and 
        conditions.
  <bullet> State of institutional preparedness, leadership and support 
        for integrating climate science into relevant and appropriate 
        programs, procedures and policies.

    Time does not permit addressing each ingredient but I will draw 
attention to the second component, namely that of assessing 
vulnerability. I will quickly illustrate some key issues using water 
resources as an example, looking first at the impacts and then at the 
potential for adaptation.

     CAN ADAPTATION REDUCE ECONOMIC AND ENVIRONMENTAL CONSEQUENCES?

    Essentially one of the goals of most water supply systems and 
institutions, especially in the West, is to help communities cope with 
a moderate range of climate and water supply variability. With few 
exceptions, most water system and utility managers agree that U.S. 
communities, industries and water users are generally prepared and well 
adapted to manage successfully within `normal' fluctuations, often 
including occasional extremes (such as events that typically occur once 
every decade or two). However, problems begin to arise when relatively 
rare or unexpected events occur and re-occur with unusual frequency 
(such as flooding along the Red River of the North where historic 
floods once thought to be rarer than once in 100 years are occurring in 
surprising rapid succession). If, as the accumulated science indicates, 
climate changes can result from rising greenhouse gas concentrations 
and emissions, and if these changes contribute to greater climate 
uncertainty and extreme events, then it might be reasonable and prudent 
to expect more severe and/or frequent extreme events. Such events can 
quickly become a significant economic and environmental concern, 
pushing beyond the prevailing capacities of water users to cope, and 
indicating the need for additional adaptive capacity. Adaptation as 
such can be viewed as a complement to climate change mitigation 
activities within a comprehensive and coordinated climate strategy.
    To determine if and how adaptations can reduce economic and 
environmental consequences, we need to first identify and estimate 
vulnerabilities and specific impacts. A general approach would begin 
with an examination of the physical and environmental systems that 
support economic and environmental health. For water resources this 
begins with the question, ``What if climate changes and it brings about 
changes in streamflows, water storage, and water availability?'' which 
draws upon the expertise of climate and hydrology scientists. The 
result is a scenario analysis which could include a projection of how a 
river's hydrograph could be expected to change (an example is shown in 
Exhibit 1).*
---------------------------------------------------------------------------
    * Exhibits 1 and 2 have been retained in committee files.
---------------------------------------------------------------------------
    Then economic and environmental scientists can proceed to ask: 
``What might these changes in streamflows imply for ...''

  <bullet> Water storage and distribution systems
  <bullet> Urban and rural water users
  <bullet> Water quality
  <bullet> Hydropower
  <bullet> Recreational and cultural functions
  <bullet> Riparian ecosystems and migratory patterns
  <bullet> Local employment, jobs, and income?

    A quick summary of key climate change impacts estimated for the Rio 
Grande by Hurd and Coonrod (2007) indicate the likelihood of:

  <bullet> Earlier snowmelt and peak runoff, greater evaporation 
        losses, and reduced streamflows even if total annual 
        precipitation should increase, and if precipitation should 
        fall, runoff could be reduced by as much as 1/3.
  <bullet> Rising populations and lower water supplies will raise 
        pressure to tighten and fine tune water management systems. 
        Systems with limited storage capacities are most vulnerable.
  <bullet> Projected annual economic losses than range from $13 million 
        to $115 million by 2030, and from $21 million to as much as 
        $300 million by 2080.
  <bullet> Traditional agricultural systems and rural communities are 
        most at risk, and may need transitional assistance.
  <bullet> Losses to New Mexico's residents, tourists, and wildlife 
        could go well beyond such market-derived figures, including 
        losses to the environment, water quality, and quality of life.

    It is during the process of assessing vulnerability that the 
question of adaptation begins to arise. For example, with their primary 
focus on the physical systems, the earliest climate change impact 
assessments often neglected expected natural responses from affected 
people, such as farmers, once they had realized that a change occurred. 
After all, a great evolutionary strength of humans is their capacity to 
observe and recognize changing conditions and to react accordingly 
(although it might take some time to realize, confirm and learn that 
the observed changes are likely to persist).
    This capacity to recognize and react to changing conditions confers 
economic advantage and success. However, and this is KEY, even greater 
advantage and long-run economic success follows from the ability to 
observe patterns and trends, and to combine these with knowledge and 
understanding of our economic and environmental systems in anticipation 
of likely outcomes and consequences. It is worth taking a moment to 
more clearly illustrate the essential difference between reactive and 
anticipatory (or proactive) adaptation strategies. This illustration 
also highlights the importance of investment timing in the effort to 
build adaptive capacity.
    Imagine that we can illustrate these differences using a timeline 
over which net economic performance is measured (call it something like 
`gross domestic happiness' to distinguish from the flawed concept of 
`gross domestic product'--which most often shows a boost to economic 
production after a disaster). Also imagine that a significant climate 
catastrophe occurs at a given point in the timeline (see Exhibit 2).
    Consider the case of reactive adaptation, and note that it can 
result from either of two situations. The first is when little or no 
consideration is given at all to evolving trends and future conditions 
or events. In this case any adaptation that occurs is after-the-fact 
and in response to events and conditions after they have occurred. The 
second way that results in a reactive response is when investment 
decisions are delayed or postponed, either rationally and deliberately 
because of inherent uncertainties and costs, or inadvertently because 
of indecision. In either of these cases the outcomes are similar, net 
economic benefits are positive and continue to grow until the adverse 
event or change. A significant adverse event then occurs, significant 
economic losses ensue, and the path to recovery is protracted and 
costly. After recovery and the economy is reestablished, which now may 
even perform better than before because degraded and depreciated 
infrastructure has been replaced (like with the Marshall Plan). But 
maybe the redevelopment occurs without any change for future defenses, 
production of economic and environmental services continues--until the 
next adverse event. Several questions then arise, ``Could we have done 
better?'' ``Were events and changes foreseeable?'' And, ``Would better 
preparations, designs and policies have lessened the damages and 
speeded recovery?''
    Now consider a well planned and executed proactive adaptation 
strategy, one that tries to anticipate changing conditions and to 
prepare for them in advance. In this manner, prior and/or continuing 
investment to build and strengthen adaptive capacity will undoubtedly 
redirect resources away from current consumption, resulting in lower 
net economic rewards relative to no-or postponed-investment, but only 
for the duration until the adverse event occurs. Generally, if the 
adverse event is not a question of `if' but rather `when', then 
anticipatory adaptation strategies share many similar aspects to a 
prudent and effective risk management or insurance-type strategies. In 
this case, when the adverse event occurs there is also the potential 
for significant economic loss and disruption but with effective 
preparation it may only be a fraction of what it would have been. In 
addition, with proactive adaptation the path and duration of economic 
recovery may be much shorter, resulting in greater net economic 
performance in the long-run.

 STRATEGIES, OPPORTUNITIES AND OPTIONS TO STRENGTHEN ADAPTIVE CAPACITY

    Many adaptation strategies and opportunities fall within four broad 
categories.

1. Improve science and technical information including development, 
        integration, education, and dissemination
    There is a need for continued development of climate, 
environmental, and resource management sciences and their integration. 
For example, there has been progress in development of assessment 
methods but uncertainties which compound and cascade throughout the 
process result in often broad and otherwise not-well defined scenarios 
that are not very useful for local scale planning. By facilitating 
partnerships and strategic alliances between Federal and State 
agencies, National Laboratories, local governments, universities, and 
NGOs cross-organization capacities can be better harnessed and focused.
2. Develop appropriate risk management institutions and policies
    Risk management institutions, policies and insurance programs are 
often at odds, resulting in inappropriate development in high risk 
areas, and then promoting rebuilding without appropriate regard to 
risks. It might be prudent to develop programs and policies with 
greater `risk sharing' and stakeholder awareness rather than `blanket 
protection' from climate-related risks.
3. Increase the use of resource markets and incentive-based policy 
        designs
    The goal is to create a context in which communities, organization, 
and individuals can make smarter decisions and wiser choices. 
Institutions and policies that establish and use decentralized 
approaches help to provide appropriate economic signals to decision 
makers and generally improve compliance and voluntary solutions. For 
example, water-use efficiency could be promoted, resulting in more 
flexibility and responsiveness to climate changes if water-rights were 
better defined and right-holders could be compensated or could lease 
the value of `saved' water. In a similar fashion to electricity 
cogeneration and buy-back.
4. Add flexibility and safety to infrastructure design and 
        construction, and incorporate climate factors in land-use 
        planning and building codes
    Especially with long-lived infrastructure, the added costs may 
provide good value in providing both additional services and 
reliability. Risk-appropriate zoning and building codes also may add to 
short-run costs but provide better long-run protection.

    The Chairman. Thank you very much, Dr. Hurd.
    Let me start with a question or 2 about--Dr. Overpeck, your 
description of these megadroughts in the 12th century and 
before and since the 12th century leads me to wonder whether or 
not we are correct in assuming as I have--I have assumed that a 
lot of the drought problem that we might face in the future in 
the Southwest was related to climate change.
    That as temperatures warmed because of climate change or as 
they're expected, temperatures are expected to warm, that that 
would then in some way be a cause of the drought situation or 
bring about the drought situation. What you described would 
lead me to conclude that maybe the drought situation has been 
there, will be there in the future regardless of what happens 
to the temperature.
    I guess I'm just trying to get straight in my head the 
extent to which hot and dry necessarily go together here in 
this process or whether we're really dealing with 2 separate 
phenomena which are somewhat disconnected.
    Mr. Overpeck. Right. You know, the scientific community is 
trying to disentangle these as we speak. It's not a completely 
straightforward problem. But we really do have 2 issues going 
on here.
    One is that we live in a drought-prone, dry part of the 
world. You can see these dry belts on both sides of the 
equator. That is well-known climate science.
    We can see in the Southwest ample evidence, for example, 
age-old pueblos in ruins, that there has been drought. That's 
essentially tied to these megadroughts I've been talking about. 
The best science says that we've been in a drought-prone 
region, we'll always be in a drought-prone region in the 
future, meaning it's a no-regret strategy to prepare for these 
long droughts even in the absence of climate change.
    Now, when you add climate change to the equation, it makes 
the situation a heck of a lot worse. The first and foremost 
problem is the temperature rise that you've been talking about. 
You're absolutely right that there's a trend in the average 
background climate of the Southwest; that is, toward warmer and 
drier conditions.
    That is the climate, the average climate on which these 
droughts, these extreme events will be superimposed. So now we 
have these superimposed on a relatively wet Southwestern 
climate as in the past. In the future it will be drier and 
drier so the droughts will likely be worse and worse.
    That will be driven both by the temperature increases which 
we have huge confidence is going to occur as well as reductions 
in, you know, the baseline average precipitation. So these 
things are pretty tightly connected.
    The third aspect of this is that climate theory suggests 
that, and we're seeing this worldwide, with global warming 
droughts should be more frequent in these dry zones.
    So all things equal, even though we have quite a bit of 
uncertainty with this one in this region, if you're a betting 
person, you would say we're going to have more frequent drought 
in the future. For us that means more frequent megadrought as 
well.
    The Chairman. OK. Let me ask Mike a question. Then if 
either or the other of you want to comment, please do.
    First let me also commend you for this report. I think it's 
an excellent first report. As I understand the legislation that 
both of us worked on here, this SECURE Water Act Section 9503
    [C] report is to be done or updated every 5 years, is that 
the plan?
    Mr. Connor. That's correct.
    The Chairman. So this is the first of those. I think it's 
an excellent effort. This chart that's up here on the left, 
Bureau of Reclamation chart with the heading Climate Change 
Impacts in Western Basins, again you start out and it says 
increasing temperature, that's in all basins. I understand 
that.
    Mr. Connor. Correct.
    The Chairman. Yes, there's no confusion there. The next 2 
categories on your chart are a little--raise other questions, 
though. You've got decreasing precipitation which is what we've 
been talking about here primarily, and that is here in the Rio 
Grande Valley, Lower Colorado River Basin--or Upper Colorado 
River Basin.
    But then the next one is increased precipitation. So we are 
in a circumstance where your report is concluding that, as we 
are going to face more and more drought in this area, other 
river basins are going to face more and more precipitation.
    I guess I'm questioning how confident we are in those 
predictions, where we can say, you know, there's good 
consensus--as Dr. Overpeck just said, there's good consensus 
among scientists that the temperature is going to go up 
worldwide.
    Is there also good consensus as to where the droughts are 
going to worsen and where the precipitation is going to 
increase?
    Mr. Connor. I don't think there's as much confidence level 
in those kind of predictions as there are with respect to 
temperature rise. Let me just say with respect to--and I think 
Dr. Overpeck--I'm going to be cautious here because I'm going 
to be followed up by I think a true expert here with respect to 
some of the work done by the IPCC, the Intergovernmental Panel 
on Climate Change.
    That's kind of the foundation work for what we did in the 
SECURE Water Act report. So we used the global climate 
circulation models there and the climate change projections 
that were developed by the IPCC.
    So from that it's foundational and from our view the gold 
standard for projections of what's going to change over time. 
So I think inherent even within those reports done by the IPCC 
there's the recognition of some inherent uncertainty with 
respect to changes in precipitation patterns.
    Now, we took that a step further and then we combined that 
with hydrologic models and then did some downscaling that I 
think--that's kind of the Reclamation new work that's been put 
into these reports. That's been peer-reviewed. But there's 
still--it builds off of that, those models, with respect to 
changing precipitation patterns, et cetera, that do have some 
uncertainty. So we've tried to describe that in the report in a 
way to be transparent.
    As you mentioned the idea over time is to get better 
information, better models, and then reassess risks through 
these 5-year iterations of our report.
    The Chairman. Dr. Overpeck, did you want to add anything to 
that?
    Mr. Overpeck. Sure. I think Mike got it right. I do want to 
say once again I believe his report, having read the whole 
thing, is definitely state-of-the-art.
    The scientific community is inherently quite conservative 
on some issues. One of the things--and we like to highlight the 
uncertainties. There is a good deal of uncertainty about 
precipitation in many parts of the world and how it will 
change.
    But there is--seems to be a higher than average certainty 
that in our part of the world, the Southwest, we should see a 
steady decline. Not every year. But decade by decade it should 
get drier and drier here in the Southwest just as to the north 
of us it should get wetter.
    The reason for this is tied to how climate, global climate, 
hemispheric climate and warming affects the mean circulation of 
the atmosphere. It acts to actually drive the late winter 
spring storm tracks northward as the planet warms.
    We see this happening now, we see it in models, we see it 
in paleoclimates. So in ancient periods, you know, back in the 
ice ages, for example, when we had warm periods interrupting 
the ice ages, this same phenomena occurred, the storm tracks 
moved northward.
    The thing that's worrisome to me--and again my job here I 
see on this panel is to be a little less conservative and look 
at where are those places where we better make sure we got it 
right. So we don't--avoid, you know, an earthquake/tsunami 
situation or are terribly surprised by something really much 
worse than we anticipated.
    One of the things that worries me is that in both 
hemispheres you see this widening of the tropical belts, 
movement polar-ward of the westerly circulation, the 
circulation that brings our late season snow pack. The only 
difference is in mother nature it's happening faster than the 
models say it should be happening.
    Now, we don't know why that's occurring. It could be 
because the system is just more sensitive than we thought, some 
of the models simulate more sensitivity. Again the Bureau of 
Rec is playing it safe. They're looking at all the models. 
That's probably the best--wisest move to get the most likely 
outcome.
    Or is it because of the interaction of the climate change 
problem and the stratospheric ozone problem. That is affecting 
the circulation as well, because we're developing now an ozone 
hole in the northern hemisphere. That also acts to tighten up 
the circulation in the northern hemisphere. That is also going 
to continue into the future.
    So whatever reason the big uncertainty here is just maybe 
how far north this dry belt will actually progress through this 
century. It might be as the Bureau of Reclamation portrayed it, 
as the IPCC portrayed it. It might be further north, in which 
case things will be a little less fun in the United States of 
America.
    The Chairman. Let me ask an obvious question here. Is 
there--is there--is the modeling that is--that we are relying 
on here, that the Bureau of Reclamation is relying on in 
preparing this report, is this accepted as the modeling that 
best incorporates the data that we have and information we have 
going forward or is there someone else with a different model?
    I mean could we be having a hearing with a different set of 
experts who made their conclusions based on a different model 
and they would be telling me just the opposite as to--maybe not 
as to the temperature rise. But as to the places where the 
drought would occur and the places where the precipitation 
would occur?
    Mr. Overpeck. I think you would have a tough time finding 
any expert who has worked on climate for decades to, you know, 
say that the general pattern that's reflected in the Bureau of 
Reclamation report and in the IPCC results is wrong.
    The Chairman. That's the pattern on precipitation as well 
as the pattern on temperature?
    Mr. Overpeck. Yes. I mean everyone would say it's going to 
warm. It's a question of how much it's going to warm. We can 
talk about that if you wish, because again I think it could 
warm more, especially if we let greenhouse gases go unchecked 
as we are. It could warm substantially more than is reflected 
in the results. But again they're looking at the average across 
many models and scenarios.
    The way the scientific community works is there's always a 
new model. One of the reasons we have the Intergovernmental 
Panel on Climate Change is because the governments of the 
Intergovernmental Panel, meaning over 100 nations of the world, 
said--people like yourself, leaders of these countries said we 
really need to have, you know, a consensus.
    So in these cycles that last approximately 7 years, the new 
models are brought together and assessed together, the newest 
results, and brought out and peer-reviewed and essentially work 
their way--eventually work their way into these management 
documents.
    So we're now in midway through the next cycle that will 
update the work that's in the Bureau of Reclamation. But I need 
to emphasize that right now what they've got in there is state-
of-the-art and best we know.
    The Chairman. So by the time the next 5-year report is 
done, there will be a new model or an updated model?
    Mr. Overpeck. There will be many models. They will be 
analyzed and they might give a different picture. What we will 
not see, though, is a change away from it's going to warm. It's 
going to warm a lot.
    What we will not see I believe is that it's going to get 
wetter in the Southwest. What we might see is that it will get 
drier in some of the places that the Bureau of Reclamation now 
is saying might get wetter. So there's some uncertainty there. 
But the big things especially that matter to us in the 
Southwest are unlikely to change.
    What we'll also see in this new report is more addressing 
of this issue of the droughts I think and incorporating those 
into the same picture.
    The Chairman. Thank you. Mike, could you give me a little 
more explanation of this other report that you indicate is 
forthcoming that the Geological Survey is working on and what 
will it address that has not been addressed in the report that 
you've released this week?
    Mr. Connor. I kind of look at the 2 reports as very much 
working together. Our report being very much--I guess I would 
say the primary audience is the water user community and 
certainly policymakers, about what we can do to best assess the 
risks out there right now as to how water resources 
management--water resources supplies are going to change and 
how management is going to change.
    The idea--that's the 9503 report. The 9506 report is more 
geared toward a scientific basis, which is what kind of inputs 
do we have, data inputs, observational capabilities to take in 
data about water resources, about the use of water resources, 
et cetera, about--more data with respect to climate, and where 
do we have gaps and how we can improve and update those data 
systems.
    So that's what the USGS in collaboration with a number of 
Federal and State agencies and other entities was putting 
together, kind of a very science-based approach on how to get 
the best data and where we should go from a policy perspective.
    The beauty of it, though, is I think the idea here. I think 
Dr. Overpeck mentioned this earlier, is we need to bring the 
science community, the water manager community, and the 
policymaker community all together.
    That's hopefully what's going to keep occurring with these 
separate reports that come out that build upon each other; and 
we use and we improve our data collection and we improve our 
modeling; therefore, we improve or risk assessments, et cetera.
    So I think they're very much going to work in synergy 
together, but they do have different purposes coming out of the 
gate.
    The Chairman. Let me ask a more practical question. For 
communities that are encountering very severe drought 
conditions here in New Mexico, are there programs of assistance 
that the Bureau of Reclamation can provide or through the 
Department of Agriculture, are there ways that these 
communities can get assistance in dealing with drought 
circumstances?
    Mr. Connor. There are. I guess initially I would go back to 
saying the best thing that we can do in reacting to the drought 
is to not do it after it occurs.
    So a lot of the assistance or activity that we've got 
ongoing, whether it be the Middle Rio Grande, with the issues 
of trying to secure water supplies for--to ensure that we're in 
compliance with the Biological Opinion or in the Pecos River 
Basin is to create opportunities so that we can access 
supplemental water supplies, that we have them in hand, that we 
know other opportunities to get more in a situation like this 
year, where we may need additional water supplies, because we 
first want to avoid that crisis from not being in compliance 
with Federal law. Because that's going to affect not just the 
Bureau of Reclamation but all water users up and down.
    Certainly as Esteven mentioned a lot of the communities 
have diversified their own supplies, the city of Albuquerque, 
the city of Santa Fe. So they've got groundwater resources, 
they've got surface water resources. That's going to help them 
over time deal with the drought situation.
    We do have a drought relief program within the Bureau of 
Reclamation. We've used that within the last decade on numerous 
occasions within New Mexico to drill, provide resources to 
drill supplemental wells. We've still got some activity going 
on.
    We've partnered up with the Indian Health Service on many 
pueblos to drill some supplemental wells. We don't have a lot 
of resources in that particular program right now. So we are 
looking at other opportunities to partner up with USDA which 
does have drought relief programs.
    So there are just inherently those opportunities to react 
and bring immediate resources to the table. But at this point 
in time, it's hard to get wells drilled quick enough to provide 
water when you're in the middle of a drought. Sometimes as I 
mentioned we're more left in the position of mitigating 
economic losses in those types of situations.
    The Chairman. Dr. Hurd, let me ask you, one of the--you had 
your 4 strategies and opportunities and recommendations here in 
your testimony. You talk about developing appropriate risk 
management institutions and policies.
    You say ``Risk management institutions, policies, and 
insurance programs are often at odds, resulting in 
inappropriate development in high-risk areas and then promoting 
rebuilding without appropriate regards to risk.'' Then you also 
say ``It might be prudent to develop programs and policies with 
greater risk sharing and stakeholder awareness rather than 
blanket protection.'' Could you elaborate on what you--maybe 
give an example of what you're talking about there so I have a 
better understanding of what you're recommending.
    Mr. Hurd. Certainly. Thank you again. One of the ways in 
which I've observed that risk--risk-prone areas, for example, 
in sea level coastal communities, where sea level storms or sea 
level rise could be affecting properties and communities, we 
have flooding events that are going on unfortunately perhaps as 
we speak in the Midwest as the rise of the Ohio River and the 
Mississippi River inundates some communities, protected 
ostensibly by levees that may or may not be well-developed or 
well-managed for flood protection and in protecting or 
ostensibly protecting areas that may in the future, if we gave 
regard to the climate science, the changing risk-prone nature 
of some of these areas might be affected.
    In the Southwest what--we will see that--similar types of 
events again related to flood risk, development near arroyos. 
We saw the floods that were quite tremendous in 2006 that 
flooded the community of Hatch and great floods through the 
city of El Paso as well and making sure that we are aware of 
what those flood risks are along the arroyos and riverbanks.
    I do know the flood--the FEMA agency has been developing 
new flood risk maps. Those are often quite contentious as you 
are probably well aware and affecting how risk--flood insurance 
is provided and which communities are at risk.
    Oftentimes those--even those updated flood risk maps are 
not reflecting anything to do with changes in climate. So what 
I'm suggesting is that we ought to develop some ways and tools 
and methods to enhance those kinds of development.
    Similar things with drought risk and crop insurance. We 
ought to be able to provide better information and better tools 
to farmers on crops that are likely to succeed in certain areas 
and reduce our coverages of--in regions where drought risk is 
rising or changing. Maybe we need to have better information to 
promote awareness and responsible behavior from resource 
owners.
    The Chairman. OK. I appreciate very much the great 
testimony of all of you and appreciate the hard work that went 
into developing the report that the Bureau of Reclamation has 
done. We thank you all for coming and participating in the 
hearing.
    Let me indicate that we will be glad to accept statements 
for the record that we will include in the committee record of 
this hearing. They can be submitted to our committee, which--
the same website, what, energy dot Senate dot gov through the 
11th of May.
    So I thank everyone for participating, thanks for coming. 
We will stop the hearing at this point.
    [Whereupon, at 3:10 p.m., the hearing was adjourned.]


                                APPENDIX

              Additional Material Submitted for the Record

                              ----------                              

 Statement of Christine Reimer, Government Affairs Director, on behalf 
         of National Ground Water Association, Westerville, OH

    The National Ground Water Association (NGWA) appreciates the 
opportunity to provide testimony for this hearing. NGWA is the world's 
largest association of groundwater professionals, representing public 
and private sector engineers, scientists, water well contractors, 
manufacturers, and suppliers of groundwater related products and 
services. NGWA's comments will focus on groundwater's role during 
droughts and the scientific understanding of impacts of climate change 
on groundwater resources.
    Groundwater, the nation's subsurface reservoir, will be relied on 
more in the future, to help balance the larger swings in precipitation 
and associated increased demands caused by heat and drought. 
Groundwater will also be used to increase water supply reliability 
through periods of climate fluctuations and may serve as future 
repositories for CO2 emissions. There will be more emphasis on 
conjunctive use, which involves the coordinated and planned operation 
of both surface and groundwater resources for conservation and optimal 
use. There will be an increased focus on efforts to manage aquifer 
recharge, and there should be a greater emphasis on protecting our 
valuable groundwater supplies.
    Groundwater has and continues to take on an expanding and pivotal 
role in water resource planning. The expanding emphasis on the need and 
usage of groundwater resources will require policy tools based on sound 
science to provide the nation with safe, reliable water supplies.
    While groundwater management decision making is most effective when 
done at the state and local level where site-specific considerations 
can be taken into account, the federal government is currently playing 
and must continue to play a leadership role. Federal leadership is 
needed to help ensure these water professionals have the tools they 
need to promote the long-term sustainable use of our groundwater 
resources, including addressing the potential impacts of climate 
change.
    In particular, NGWA calls on the federal government to provide 
federal funding to the U.S. Geological Survey's Ground Water Resources 
Program to begin implementation of a systematic nationwide groundwater 
level and quality monitoring network and data management system. 
Currently, there is no systematic nationwide groundwater level or 
quality monitoring network.
    Congress authorized a national groundwater monitoring network with 
passage of Public Law 111-11 (Omnibus Public Land Management Act) in 
2009. In 2010, six states\1\ voluntarily pilot tested concepts for a 
national groundwater monitoring network as developed by the federal 
Advisory Committee on Water Information's (ACWI) Subcommittee on Ground 
Water (SOGW). If this effort moves forward, consistent, comparable 
nationwide data would become accessible through a web portal for 
federal, state, local government and private sector users. In these 
tight fiscal times, the proposed network would build on existing state 
and federal investments, maximizing their usefulness and leveraging 
current dollars to build toward systematic nationwide monitoring of the 
groundwater resource.
---------------------------------------------------------------------------
    \1\ The six pilot states were Illinois, Indiana, Minnesota, 
Montana, New Jersey, and Texas. Additionally, Idaho, North Carolina, 
South Carolina, Washington and Wyoming volunteered as pilots but were 
not included given limited oversight resources.
---------------------------------------------------------------------------
    Groundwater provides 40% of the nation's drinking water supply. For 
a small investment, the nation can begin finally to put in place 
adequate monitoring of this irreplaceable resource.
    Thank you.
                                 ______
                                 
                  Statement of The Wilderness Society

    Thank you Chairman Bingaman and Ranking Member Murkowski for this 
opportunity to address the issue of water and climate in New Mexico.
    The Wilderness Society\1\ shares your concern for maintaining the 
viability of community water supplies in the face of global warming. 
America's public lands--some 635 million acres of land and 150,000 
square miles of protected waters--are a legacy we hold in trust for 
generations to come. Global warming poses an unprecedented threat to 
the nation's iconic landscapes--our national parks, forests, wilderness 
areas, desert lands managed by the Bureau of Land Management, and 
wildlife refuges. At the same time, our country's parks and other 
public lands offer one of our best hopes for sustaining the plants, 
animals, birds, clean water and air, and recreational opportunities 
that are important to our heritage. They store water and carbon and 
provide large core protected areas that will be essential in adapting 
to a changing climate. These lands also provide critical services for 
our communities, including filtering the air we breathe and the water 
we drink and rely on for food production. Protecting these natural 
places is more important now than ever.
---------------------------------------------------------------------------
    \1\ The Wilderness Society was established 75 years ago to protect 
wilderness and inspire Americans to care for our wild places. Our 
mission is to maintain the integrity of America's wilderness and public 
lands and ensure that land management practices are sustainable and 
based on sound science. With more than half a million members and 
supporters nation-wide, TWS represents a diverse range of citizen 
support for wise stewardship of our network of wild natural areas.
---------------------------------------------------------------------------
    The Wilderness Society appreciates the leadership of this Committee 
in undertaking a review of water supplies in the West, both through 
understanding climate impacts on reclamation\2\ and data collection 
relevant to monitoring hydrologic conditions. To supplement these 
reports, we are submitting a set of case histories below so that the 
Committee may consider examples of water protection initiatives that 
have relied extensively on the maintenance of natural ecosystems. The 
health of our nation's public lands--particularly its forests--are 
critical to maintaining the viability of thousands of communities 
across America. Just as a car won't start if the battery is low, 
economic activity weakens and dies if our natural water systems--acting 
as a battery for sustainable water supplies from season to season--run 
dry.
---------------------------------------------------------------------------
    \2\ See reports generated in response to the SECURE Water ACT: 
http://www.usbr.gov/climate/SECURE/docs/SECUREWaterReport.pdf and 
http://acwi.gov/Rpt.Congress3.18.11.pdf.)
---------------------------------------------------------------------------
    In fact, forests supply drinking water to more than 180 million 
people and over sixty million people rely on a national forests for 
their water.\3\ Climate change threatens both the health of our forests 
as well as the water resources they provide. Protecting forests today, 
and keeping them resilient in a warming world by investing in climate-
smart conservation, is a cost-effective strategy to mitigate future 
climate impacts and ensure our wildlands and communities have the water 
they need in years to come.
---------------------------------------------------------------------------
    \3\ http://www.fs.usda.gov/Internet/
FSE_DOCUMENTSstelprdb5107789.pdf
---------------------------------------------------------------------------
    Restoring and protecting forests for their water resources is not a 
new concept. In fact, many of America's forests were originally 
established for this exact reason--and we benefit today from this 
foresight. The case studies below highlight this legacy, and we hope 
inspire a renewed commitment to keeping our forests resilient as we 
face changing climates.

                             CASE HISTORIES

          1. The Tolt River Watershed is smaller area of land, but 
        similar to the Cedar River Watershed in its contribution of 
        fresh water to the Seattle area. The entire watershed is 63,800 
        acres, although only 8,400 acres is owned by the City of 
        Seattle. This forestland is located at the foot of the 
        breathtaking Cascade Mountains and produces up to 100 million 
        gallons of clean drinking water per day. The City of Seattle 
        recognized the importance of this watershed and traded 
        Weyerhaeuser Timber Company for the land, which now belongs 
        solely to the city. Today, the Tolt River Watershed supplies 
        30% of fresh drinking water to the 1.3 million people in the 
        greater Seattle area. Earth Economics estimates that the entire 
        watershed has a present value of between $5.6 and $20.9 billion 
        at a 7% discount rate, using a 3.5% discount rate (used for 
        renewable and self sustaining ecosystem services,) that number 
        would be between $10.9 and $40.3 billion.

``Tolt River Watershed.'' Seattle.Gov: Seattle Public Utilities. 
Seattle Public Utilities, 2011. Web. 30 Mar 2011. <http://
www.seattle.gov/util/About_SPU/Water_System/Water_Sources_&_Treatment/
Tolt_River_Watershed/index.asp>.

Batker, David K. ``Supplemental Ecological Services: Tolt River 
Watershed Asset Management Plan.'' Earth Economics. Earth Economics, 
December 16, 2005. Web. 31 Mar 2011. <http://www.eartheconomics.org/
FileLibrary/file/Reports/Puget%20Sound%20and%20Watersheds/
Tolt_River_Ecological_Service_Study.pdf>.

          2. The Cedar River Watershed is 90,638 acres of forestland 
        that has been regulated by the City of Seattle since 1899. The 
        watershed continued to be logged until erosion, forest 
        degradation and forest fires lead the City to take the first 
        steps in protecting this forestland. An extensive watershed 
        assessment was done, which resulted in the creation of more 
        sustainable logging practices and the replanting of local 
        species. Today, 17% of old growth remains in the Cedar River 
        Watershed and this watershed currently provides clean drinking 
        water to 1.4 million people in the Seattle area. If the Cedar 
        River Watershed was not there to filter the water being used by 
        the city, the City of Seattle would have to pay over $250 
        million for a water filtration plant like other cities in the 
        U.S.

``Cedar River Watershed.'' Seattle.Gov: Seattle Public Utilities. 
Seattle Public Utilities, 2011. Web. 30 Mar 2011. <http://
www.seattle.gov/util/About_SPU/Water_System/Water_Sources_&_Treatment/
Cedar_River_Watershed/index.asp>.

``Flood Protection and Ecosystem Services in the Chehalis River 
Basin.'' Earth Economics. Earth Economics, May 2010. Web. 1 Apr 2011. 
<http://www.eartheconomics.org/FileLibrary/file/Reports/Chehalis/
Chehalis_Executive_Summary.pdf>.

          3. The Bull Run Watershed is within the larger Sandy River 
        Watershed, in the Mt. Hood National Forest. The City of 
        Portland successfully lobbied President Harrison in 1892 to 
        make Bull Run a national forest Reserve. In recognition of the 
        paramount importance of this watershed, the US Congress passed 
        amendments to the 1977 Bull Run Act in 1996 that limited 
        activities and increased protection in the Bull Run Watershed. 
        Bull Run has is the primary source of drinking water for almost 
        one-fourth of the population of Oregon, around 787,000 people. 
        Bull Run watershed, along with the Mt. Hood National Forest, 
        serves as emergency water sources during summer droughts.

``The Bull Run Watershed.'' City of Portland: Portland Water Bureau. 
Portland Water Bureau, 2011. Web. 31 Mar 2011. <http://
www.portlandonline.com/water/index.cfm?c=29784>.

Hopper, Kim, and Caryn Ernst. ``Source Protection Handbook: Using Land 
Conservation to Protect Drinking Water Supplies.'' Trust for Public 
Land. (2005): Print.

          4. The Upper Neuse River basin in North Carolina is a huge 
        watershed in the central part of the state. The basin covers 
        770 square miles and is managed by multiple agencies, all of 
        which have different management objectives ranging from water 
        quality monitoring and conservation to wastewater treatment and 
        storm water management. The Upper Neuse River Basin Association 
        is a regional collective of local governments who have 
        jurisdiction in different regions of the Upper Neuse. The 
        association is an attempt to aid cooperative management between 
        agencies. The whole basin supplies more than .5 million people 
        in North Carolina with fresh drinking water.

Terziotti, Silvia. ``The Upper Neuse Watershed Evaluation Tool.'' USGS. 
USGS, 2006. Web. 31 Mar 2011. <http://nc.water.usgs.gov/reports/
abstracts/Ter06Upp_full.html>.

NOTE: for the Snohomish and Nisqually---both estimates are low, because 
these are estimated values of natural systems, they technically should 
be treated differently than other economic assets and so their value 
over, say, 100 years is actually huge because they would receive 0% 
discount rates.

          5. The Snohomish Basin provides multiple ecosystem services 
        to Western Washington including providing fresh water, 
        buffering against flooding, supporting fisheries and 
        agriculture, and providing waste treatment. These combined 
        services are estimated to be providing between $383.1 million-
        $5.2 billion every year. These ecosystem services have a 
        present value of between $13.2 billion and $180.1 billion, 
        (using a 2.7% discount rate). If we fail to protect this 
        important watershed and allow natural systems in the Snohomish 
        to become degraded, we could face huge economic value losses.

Batker, David, Rowan Schmidt, Jennifer Harrison-Cox, and Briana Lovell. 
``The Whole Economy of the Snohomish Basin.'' Earth Economics. Earth 
Economics, November, 2010. Web. 31 Mar 2011. <http://
www.eartheconomics.org/FileLibrary/file/Reports/Snohomish/
Earth_Economics_Snohomish_Basin_Report_LQ.pdf>.

          6. The Nisqually Watershed links the glaciers of Mount 
        Rainier to the Puget Sound and crosses multiple municipalities, 
        but it is unique in that it's headwaters are in a National Park 
        and its delta is in a National Wildlife Refuge. In 1985, the 
        Washington State Department of Ecology created a management 
        plan and council for the protection of the watershed. The 
        Nisqually River Task Force was created and includes 
        representatives from federal, state, and local governments, 
        agencies, and organizations as well as members of the Nisqually 
        Indian Tribe. Earth Economics did an assessment of the economic 
        benefits that this watershed provides people living in the 
        Pierce County area and have estimated that the value of just 12 
        of the 23 ecosystem services that this watershed offers is 
        between $287,600,000 and $4,165,990,000 in yearly benefits. If 
        the watershed was viewed as an economic asset, its asset value 
        would be between $9.5 billion and $138 billion.

Batker, David, Isabel de la Torre, Maya Kocian, and Briana Lovell. 
``The Natural Economy of the Nisqually Watershed.'' Earth Economics. 
Earth Economics, 2009. Web. 31 Mar 2011. <http://
www.eartheconomics.org/FileLibrary/file/Reports/
Natural_Economy_of_Nisqually_Watershed_7_2009.pdf>.

``The Nisqually Watershed Stewardship Plan.'' Nisqually River Council. 
Nisqually River Council, 2009. Web. 31 Mar 2011. <http://
nisquallyriver.org/who-we-are/the-nisqually-river-management-plan/>.

``Nisqually Land Trust Facts.'' Nisqually Land Trust. Nisqually Land 
Trust, 2006. Web. 31 Mar 2011. <http://www.nisquallylandtrust.org/
land.php>.  

          7. Puget Sound is in the western part of the state of 
        Washington and is made up of interconnected estuarine systems 
        and waterways. The basin is home to 4.3 million people and one 
        of the largest cities on the West Coast, Seattle. The basin 
        provides drinking water, recreation, fish , flood and storm 
        protection, and erosion control, just to name a few. As a 
        whole, the ecosystem services within the basin provide between 
        $7.4 and $61.7 billion in benefits to human communities every 
        year. If viewed as an economic asset, the basin is worth at 
        least between $243 billion and $2.1 trillion.

Batker, David, Paula Sweeden, Robert Costanza, Isabel de la Torre, and 
Roelof Boumans. ``A New View of the Puget Sound Economy .'' Earth 
Economics. Earth Economics, n.d. Web. 1 Apr 2011. http://
www.eartheconomics.org/FileLibrary/file/Reports/
A_New_View_of_the_Puget_Sound_Economy.pdf

          8. The Skokomish River is in the Southeast part of 
        Washington's Olympic Peninsula and is one of the US Forest 
        Service's focus points in terms of restoring damaged 
        watersheds. The Skokomish watershed was overcut in the early 
        1950's and continued until the 1980's. By this point, 60% of 
        the Skokomish had been clearcut and hundreds of miles of 
        logging roads had been built, causing erosion. Sediment and 
        gravel were deposited in the River and created buildup, which 
        lead to flooding in Skokomish Tribeland. Since the 1990's, the 
        Forest Service has been working on restoring the watershed and 
        decommissioning old logging roads. In 2006 by the Wilderness 
        Society, the Olympic Forest Coalition and others organized the 
        Skokomish Watershed Action Team (SWAT) to help restore the 
        watershed. The Skokomish watershed is economically valuable 
        because it is the main source of fresh water for the Hood Canal 
        in Puget Sound.

Anderson, Mike. ``Washington's Skokomish Watershed: Exemplar of the 
Legacy Roads and Trails Initiative.'' Wilderness CPR. Wildlands CPR, 
2010. Web. 13 Apr 2011. <http://www.scribd.com/full/
39748952?access_key=key-2a553fp1puuc85pry87u>.

          9. The Upper Little Tallapoosa Watershed is a 95 square mile 
        area about an hour west of Atlanta. This land has historically 
        been used for traditional farming and forestry, but over the 
        past few decades it has begun to be developed into large scale 
        residential communities and commercial buildings. This 
        watershed provides drinking water for 30,000 people, mostly in 
        Carrollton and in Carol Country, Georgia. In 1987, there was an 
        outbreak of Cryptosporidum, an intestinal parasite that made 
        residents in Carol County very sick and resulted in an 
        increased awareness of water quality in the region. In 2003, 
        the citizens of Carroll County voted to raise sales taxes to 
        generate almost $85 million over five years to fund quality of 
        life projects, $19 million went toward land conservation to 
        protect drinking water.

``Source Water Stewardship: Upper Little Tallapoosa River, Georgia.'' 
The Trust for Public Land. The Trust for Public Land, 2003. Web. 12 Apr 
2011. <http://www.tpl.org/content_documents/
TallapoosaGA_ConVisCaseStudy.pdf>.

          10. Two primary watersheds are responsible for providing 
        fresh, clean water for the Boston area: the Wachusett Reservoir 
        and the Quabbin Reservoir. The Wachusett Reservoir can be dated 
        back to the late 19th century, when Boston was experiencing a 
        period of rapid growth and was beginning to require large 
        quantities of water not just for drinking, but also for 
        plumbing. City planners decided that an additional water source 
        was needed, and in 1897 the Wachusett dam was built on the 
        Nashua River. Construction was finished in 1905, and the 
        reservoir started to be regularly used in 1908. The Quabbin 
        Reservoir was constructed a few years later, in 1926. The 
        Division of Water Supply Protection and the Department of 
        Conservation and Recreation oversee management of these two 
        watersheds. Because they are both unfiltered supplies they rely 
        on forest bio-filtration to maintain drinking water standards, 
        so the Division also manages 100,000 acres of forests 
        surrounding the watersheds. The Wachusett and Quabbin 
        Reservoirs provide drinking water for almost 2.2 million people 
        and 5,500 city industrial users and are essential water sources 
        for the city of Boston.

``The Water System.'' Water Resources Authority. State of 
Massachusetts, April 2011. Web. 19 Apr 2011. <http://
www.mwra.state.ma.us/04water/html/wat.htm>.

``Office of Water Management.'' Department of Conservation and 
Recreation. State of Massachusetts, 2011. Web. 19 Apr 2011. <http://
www.mass.gov/dcr/watersupply/watershed/water.htm>.

          11. The Kenai Watershed is about 1.4 million acres and the 
        majority of the water in this watershed is the result of 
        glacier melt, which gives the River a light turquoise color. 
        The Kenai Watershed is a drastically important watershed to 
        fish species and has a very high economic value. The local 
        Alaskan commercial salmon fishing industry generates between 
        $75 and $175 million every year, Over 40% of this number can be 
        attributed to the Kenai River. The Kenai River Watershed is 
        owned by different parties. The lower 50 miles of the Watershed 
        are owned by private entities and are already being developed. 
        This development affects water quality and fish livelihood. The 
        headwaters of the watershed are in the Chugach National Forest.

``Living and Playing in the Kenai River Watershed.'' Kenai Watershed 
Forum. Kenai Watershed Forum, n.d. Web. 22 Apr 2011. <http://
web.acsalaska.net/?kenaiwatershed.forum/Living_and_Playing_KRW.pdf>.

    The Wilderness Society thanks the Committee for its attention to 
the critical connections between water, climate and community health. 
It is our hope that the case histories set forth in this testimony will 
improve public understanding of successful, cost effective strategies 
for water management and can give direction to adaptation strategies 
needed to meet the challenge of climate change in the years ahead.
                                 ______
                                 
  Statement of Meredith R. Machen, President, League of Women Voters, 
                            Santa Fe County

                          WATER (ADOPTED 2010)

    The League of Women Voters of New Mexico believes that consumptive 
use of water in New Mexico must be in balance with renewable supply. 
Healthy ecosystems naturally perform services that benefit both people 
and nature, such as cleaning water, reducing floods, and creating fish 
and wildlife habitat. To secure the benefits of functioning ecosystems 
and to conserve New Mexico's biodiversity, sufficient water must be 
budgeted for environmental flows. The creation and adherence to 
comprehensive water budgets is essential to preserve public lands, 
water, and open space, and to ensure that there will be enough water 
for future generations of New Mexicans. The state, water regions, and 
local governments must

          1. monitor and measure all water resources and uses, and 
        publish this information;
          2. use a public process to create and follow water budgets;
          3. educate citizens on their responsibilities as well as 
        their rights;
          4. promote strategies to reduce demand;
          5. minimize water contamination in order to promote the 
        health and safety of all life;
          6. preserve and restore rivers and watersheds.

    Conservation of water and efficiency of use must be encouraged to 
enable New Mexico to meet its interstate compact obligations, to help 
balance use with supply, to relieve stress on the physical system, and 
to reduce net depletion.
Regional Water Planning
    The League supports continued funding for regional planning. Using 
a public process, regional planning should

          1. gather and publish data on supply and demand, and provide 
        regular updates;
          2. create a balanced water budget;
          3. identify critical and emerging issues.

    Local land use plans should be required to be consistent with 
applicable regional water plans.
    The public welfare statements of a regional water plan should be 
considered by the State Engineer when reviewing applications for 
transfer of water rights.
Land Use and Water
    Land use and development must be tied to water availability. To 
encourage this:

          1. Compliance with water availability determinations by the 
        Office of the State Engineer (OSE) under the Subdivision Act 
        should be mandatory.
          2. Review of subdivision applications pursuant to the 
        Subdivision Act should be expanded to encompass all divisions 
        of land.
          3. Long-term cumulative impacts as well as short-term water 
        requirements of development should be taken into consideration 
        by the local permitting authority.
          4. The applicant must be required to acquire water rights 
        before development can proceed.
          5. The impact of any transfer of water rights on the area of 
        origin must be assessed.
          6. The permitting authority should evaluate the impact of 
        proposed developments on ``public welfare'' as defined by the 
        applicable regional water plan and be able to demonstrate that 
        the proposed development is consistent with the plan.
          7. New residential and commercial developments should be 
        water-efficient.
          8. Growth should not be permitted where water is not 
        available.

    Local zoning and subdivision statutes should be updated. State and 
local governments should collaborate in addressing the problem of 
antiquated subdivisions in order to facilitate planning and to make the 
water budget process meaningful.
Role of Government
    State government and the legal process must work to reconcile the 
many claims on New Mexico water in a manner that is open and as fair as 
possible. Among other considerations:

          1. Communal as well as private interests must be respected in 
        applying water law;
          2. Maintenance of in-stream flow and general ecological 
        health must be recognized as a ``beneficial use'' of water.

    The Office of the State Engineer should be adequately funded to 
execute its functions. In addition:

          1. The OSE must be given more authority to regulate domestic 
        well permits. Improved regulation and monitoring of domestic 
        wells and septic systems is essential to protect groundwater 
        supplies and should be adequately funded.
          2. The effort to gather data must be coordinated and 
        adequately funded by the state, which should establish 
        consistent protocols, accounting methods, and terminology.
          3. The state should also help implement the regional water 
        plans and provide coordination among planning activities at the 
        different levels of government and across river basins.

    Government should support research on water-related issues 
including

          1. methods to manage and store water that lose less to 
        evaporation,
          2. best agricultural practices that optimize the use of water 
        for both farmers and downstream users, while sustaining the 
        natural flow;
          3. urban systems that maximize water re-use;
          4. health of the state's rivers and watersheds.

    Governments at every level must educate citizens by developing and 
disseminating data about water resources. Local governments must 
promulgate and enforce regulations promoting conservation, including 
positive incentives and rate structures.

                                    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
